Semiannual Report to Congress
Office of Inspector General
U.S. Department of Labor




Volume 60                     April 1 - September 30, 2008
                          A Message from the Inspector General
I am pleased to submit this Semiannual Report to the Congress, which highlights the most
significant activities and accomplishments of the Department of Labor (DOL), Office of
Inspector General (OIG), for the six-month period ending September 30, 2008. During
this reporting period, our investigative work led to 292 indictments, 348 convictions, and
$36.6 million in monetary accomplishments. In addition, we issued 90 audits and other reports and
questioned $4.3 million in costs.

OIG audits, evaluations, and investigations continue to assess the effectiveness, efficiency,
economy, and integrity of all DOL programs and operations, including those performed by its
contractors and grantees. As a result of our work, we identified and testified on weaknesses in
how the Department managed its grants under the High Growth Job Training Initiative. The OIG
found that: grantees failed to achieve major performance goals; it was impossible to determine
success because goals were so unclear; grantees did not provide required matching funds; and
DOL disseminated unproven training and employment strategies.

We also focused attentionion on the integrity of the Foreign Labor Certificat                      cation programs. OIG’s
audit of the Permanentt Labor Certificati         ion s
                                             cation      yste
                                                         ys
                                                       systemt m fo
                                                             te      founund
                                                                         un
                                                                     found  d that the DepartDepartment’s change in the
process established to prevent app       pro
                                          rova
                                     approval vall of ffraudulent
                                              va         r ud
                                                         ra udul u en
                                                                 ul entt apapplplic
                                                                               pl icat
                                                                                  ic a ions limited the effectiveness of
                                                                           applications
                         tem and iincreased
the fraud detection system            ncre
                                      nc  reas
                                          re assed tthehe rrisisk
                                                              is
                                                            risk k th
                                                                    that
                                                                       at a   ppli
                                                                              pp  licant
                                                                                  li
                                                                            applicants nts may ga
                                                                                       nt           game the system. OIG
investigations continuedd to reveveal
                                 ve
                              revealal ttha
                                         hatt th
                                         ha
                                        that   tthe
                                                 he DO
                                                     DOL’
                                                     DOL’sL’s
                                                          L’s Fo
                                                               Fore reig
                                                                    re
                                                               Foreignign La
                                                                      ig       abo
                                                                                b r Ce
                                                                             Labor     Cert
                                                                                          rtifi
                                                                                          rti cation process continues to
                                                                                       Certifi
                        scrupu
be compromised by unscrupulous ulo
                                 lous
                                   us a   t or
                                          tt o neys
                                        attorneys,  ys,, la
                                                    ys   labo
                                                            borr br
                                                            bo
                                                         labor      brok
                                                                      oker
                                                                      ok   e s,, e
                                                                    brokers,      empmplo
                                                                                     mp loye
                                                                                        loyers
                                                                                          ye
                                                                                  employers,  rs, an
                                                                                              rs   and others. In one case,
a company was sentenced ced fo
                             forr fa
                                   als
                                     sif
                                       i ying
                                  falsifyingng llabab
                                                    bor c
                                                 labor     erti
                                                           er  tifi
                                                               ti
                                                          certifi fica
                                                                    cati
                                                                       tion
                                                                       ti o s in
                                                                          on
                                                                    cations      n ordrd
                                                                                       der tto
                                                                                     order    o ob
                                                                                                 o   ta employment-based
                                                                                                 obtain
                         als by c
visas for foreign nationals        harg
                                   ha rgin
                                      rg
                                  charginging
                                          in g ththem
                                                    em $ $30
                                                           30,0
                                                           30   ,000
                                                                ,0  00-5
                                                                    00
                                                         $30,000-50,000 -50,
                                                                        -5 0,00
                                                                           0,  000
                                                                               00  0p   er ap
                                                                                      per  applplic
                                                                                               pl icat
                                                                                                  ic
                                                                                           application.    We will continue
                        tmmen
to work with the Department entt to saf
                                      affeg
                                          egua
                                     safeguarduard
                                              ua  rd tthe
                                                       he iintegrity
                                                             nteg
                                                             nt  egri
                                                                 eg  rity
                                                                     ri ty ooff th
                                                                                the e FLC prprogo ra
                                                                                                og r m
                                                                                            programs.

In addition, our work re reve
                            veal
                            vea ed a n
                         revealed        umbe
                                         um
                                        numberberr of s
                                              be          sho
                                                           hort
                                                           ho r co
                                                                 comi
                                                                    ming
                                                                    mi
                                                          shortcomings  ngs in D
                                                                        ng         ep
                                                                                   epar
                                                                                    pa t
                                                                                 Departmental    management
                       ech
                         hnolo ogy security
including information technology    sec
                                     ecur
                                       urit
                                       ur ity
                                          ity de
                                              defifici
                                                    cien
                                                       enciies
                                                            es,, in
                                                    ciencies,    inef
                                                                    effe
                                                                    effec
                                                                      fe ctive
                                                                 ineffective e co
                                                                                controls
                                                                                       l over Federal records,
and procurement actionsns th
                          tthat
                             at d id n
                                did  not
                                      o c ompl
                                          om  ply
                                              pl
                                         comply  y wi
                                                    withth
                                                         hFFed
                                                            edder
                                                                eral
                                                           Federal al rrequirements.
                                                                        eq
                                                                         qui
                                                                           uire
                                                                             reme
                                                                             reme
                                                                               m  ents..

In response to previous  us au udi
                                 d t find
                             audit       ndining
                                             in
                                         ndings,gs, ththe
                                                        e De  epa
                                                                part
                                                                   rtm
                                                                   rt
                                                            Department ment ttookook
                                                                                 oo k st
                                                                                       stepeps
                                                                                           ep
                                                                                       steps  s during this reporting
period to address seriousus de
                            defi
                               ficien
                               fi    nci
                                       cies
                                         es w
                                  ciencies     wee id
                                                   iden
                                                      en
                                                       nti
                                                        tifi
                                                   identifified w   ith
                                                                    it
                                                                  with h re
                                                                          resp
                                                                             spe
                                                                             sp ect to
                                                                          respect   t M    SHA’s approval process for
                                                                                           SH
                                                                                       MSHA’s
                         tatuttor
                               ory re
roof control plans, its statutory     equ
                                        quiri em
                                     requirementment to iinspect
                                                             nspe
                                                             ns pect
                                                                pe  c a    ll u
                                                                         all  undder
                                                                                  e grou
                                                                              underground und ccoal mines, its internal
peer review process, and nd its p  r cess
                                   ro
                                 process  s ffor
                                               o d   eter
                                                       ermi
                                                       er mini
                                                          mi
                                                   determiningning
                                                              ni ng wheth
                                                                      whetherther
                                                                             th e fatal
                                                                                      aliities a
                                                                                      al
                                                                                  fatalities   are mining-related. In
                        porting pe
addition, during this reporting     eri
                                     riod
                                        od,, th
                                        od
                                  period,      he De
                                              the  Depap rtment,, wo
                                                   Department,         work rkin
                                                                            rk
                                                                       working ng wi
                                                                                  with
                                                                                     t the Na National Finance Center,
                        cies in employ
has corrected inaccuracies              oyee
                                        oy
                                 employees’ ees’
                                            ee  s’ T
                                                   TSP
                                                    SP a  ccou
                                                          cc  ount
                                                              ou
                                                        accounts  nts
                                                                  nt s th
                                                                        that
                                                                           at wwee previously reported.

Our labor racketeeringg investigations yielded
                                             d extraordinary results
                                                              results. Fo
                                                                       For example, between
July and September 2008, 60 of the 62 previously indicted Gambino members and associates
pled guilty, and 36 have been sentenced. The defendants had been charged with racketeering
conspiracy, embezzlement of union funds, and murder conspiracy. This investigation exposed
the Gambino organized crime family’s strong grip over one of the largest construction markets
in the United States.

In addition, our three-year investigation of how the Colombo and Genovese Organized Crime
Families influenced union representatives of the International Union of Operating Engineers-
Local 14 culminated in the approval of a consent degree in July 2008. It provides for the
appointment of union corruption officers to monitor Local 14’s activities and permanently enjoins
the Local from engaging in corrupt activity.

I would like to express my appreciation to the OIG staff for working diligently to identify program
weaknesses and to prevent fraud, waste, and abuse. We look forward to continuing to work with
the Department to this end.




Gordon S. Heddell
Inspector General
                        CONTENTS

Selected Statistics                            1
Significant Concerns                           2

Employment and Training Programs
Workforce Investment Act                       6
Job Corps                                      9
Foreign Labor Certification Program           12
Senior Community Service Employment Program   15

Labor Racketeering
Benefit Plan Investigations                   19
Internal Union Investigations                 22
Labor-Management Investigations               25

Worker Benefits Programs
Unemployment Insurance Programs               29
Wage and Hour Programs                        32
Office of Workers’ Compensation Programs      34

Worker Safety, Health, and Workplace Rights
Mine Safety and Health Administration         37

Departmental Management                       39
Legislative Recommendations                   45
Appendix                                      48
SELECTED STATISTICS
                                                             Selected Statistics

                              Investigative recoveries, cost-efficiencies, restitutions,
                              fines and penalties, forfeitures, and civil monetary action ....................$36.6 million

                              Investigative cases opened ................................................................................166

                              Investigative cases closed ..................................................................................257

                              Investigative cases referred for prosecution .......................................................143

                              Investigative cases referred for administrative/civil action..................................106

                              Indictments .........................................................................................................292

                              Convictions .........................................................................................................348

                              Debarments ..........................................................................................................20




                              Audit and other reports issued..............................................................................90

                              Total questioned costs ............................................................................$4.3 million

                              Outstanding questioned costs resolved during this period .................$146.3 million
                                 Allowed1 .........................................................................................$79.8 million
                                 Disallowed2 .....................................................................................$66.5 million




                               1   Allowed means a questioned cost that the DOL has not sustained.
                               2   Disallowed means a questioned cost that the DOL has sustained or has agreed should not be charged to the
                                   government.




          1           Semiannual Report to Congress, Volume 60
                       Significant Concerns




                                                                                                                    SIGNIFICANT CONCERNS
  As part of our effort to focus attention on mission-critical management problems and their
  resolution, the OIG has identified the Department’s top management challenges listed below.
  Detailed information on each of the top management challenges is found on page 50.




Department’s Top Management Challenges

     • Protecting the Safety and Health of Workers
     • Improving Performance Accountability of Grants
     • Ensuring the Effectiveness of the Job Corps Program
     • Safeguarding Unemployment Insurance
     • Improving the Federal Employees’ Compensation Act Program
     • Improving Procurement Integrity
     • Maintaining the Integrity of Foreign Labor Certification Programs
     • Securing Information Technology Systems and Protecting Related Information Assets
     • Ensuring the Security of Employee Benefit Plan Assets
     • Preserving Departmental Records


The OIG has identified the following significant concerns related to the top management challenges—
areas that are particularly vulnerable to mismanagement, fraud, waste, or abuse.



Protecting the Health and Safety of Workers

  T     he OIG has consistently revealed a pattern of weak oversight, inadequate policies, and a lack of
        accountability on the part of the Mine Safety and Health Administration (MSHA) that has been
exacerbated by years of resource shortages. Although Congress has allocated additional funding, it will
take several years for the Department to be fully functional with these increased resources. Insufficient
resources during a period of increasing mining activity made it difficult for the Department to ensure
that it had enough resources in the right places to ensure the safety of miners. Our recent audits
have documented the need for MSHA to improve its operating procedures and management oversight
in a number of areas including roof control plans, mandatory inspections, internal peer reviews, and
fatality investigations and determinations. Further, MSHA management must continue to implement our
recommendations and monitor performance to ensure that its employees are following newly established
procedures and documenting their activities.




                                                                         Semiannual Report to Congress, Volume 60            2
                       Improving Performance Accountability of Grants
SIGNIFICANT CONCERNS
                         D     OL continues to face challenges in ensuring that discretionary grants are properly awarded and that
                               the Department receives the quality of services that the taxpayers deserve. Successfully meeting the
                       employment and training needs of citizens requires selecting the best service providers, making expectations
                       clear to grantees, ensuring that success can be measured, providing active oversight, evaluating outcomes,
                       and disseminating and replicating proven strategies and programs. Both the OIG and the Government
                       Accountability Office (GAO) have found in the past year that the Employment and Training Administration
                       (ETA) continues to have weaknesses in managing its grants to this end. For example, in our audits involving
                       the High Growth Job Training Initiative, we found weaknesses including the lack of competition in awarding
                       grants, grants that failed to achieve major performance goals, grant agreements with goals that were so
                       unclear it was impossible to determine success or failure, and grants whose required matching funds were
                       either not provided or documented. Moreover, ETA continues to be challenged to provide adequate oversight
                       and monitoring of the grants it awards, as the agency lacks reliable and timely performance data that would
                       allow identification of problems in time to correct them. Finally, ETA has not evaluated the usefulness of
                       individual grant products or the overall effectiveness of its discretionary grant initiatives.

                          “...we found weaknesses including the lack of competition in awarding
                        grants, grants that failed to achieve major performance goals, grant
                        agreements with goals that were so unclear it was impossible to determine
                        success or failure...”


                       Ensuring the Effectiveness of the Job Corps Program

                         O     ur work has consistently identified challenges
                               to the effectiveness of the Department’s Job
                       Corps program. These challenges include ensuring
                                                                                safety problems at certain centers, such as water-
                                                                                damaged and collapsing ceiling tiles; mold on
                                                                                student dormitory walls and ceilings; and missing or
                       the safety and health of students and having accurate,   inoperable emergency exit signs. Further, Job Corps
                       reliable data about the program’s success.               officials need to do more to address the reported
                          A cornerstone of the Job Corps program is             problems of illegal drugs and violence at its facilities.
                       removing students from unsafe environments and              OIG audits continue to raise significant concerns
                       placing them in a safe, residential training program.    about Job Corps’s ability to report accurate and
                       Ensuring maintenance of its facilities is a challenge    reliable financial and performance data.             For
                       for Job Corps. Unsafe conditions resulting from          example, over the past few years, we have identified
                       inadequate maintenance adversely impacts the             shortcomings in the reporting of on-board strength
                       overall success of the Job Corps program. Our            and attendance at a number of centers, areas where
                       audits have documented numerous health and               we have consistently noted problems.

                       Improving Procurement Integrity

                         E    nsuring integrity in procurement activities is a continuing challenge for the Department. Our work
                              continues to identify violations of Federal procurement regulations, preferential treatment in awards,
                       procurement actions that were not in the government’s best interest, and conflicts of interest in awards. For
                       example, our audit of an employment and training contract raised concerns about preferential treatment in how
                       work was directed to a specific subcontractor. Another audit found no evidence that DOL Contracting Officers
                       were checking required sources before making General Services Administration Schedule procurements.
                       These include existing government inventories of excess personal property or nonprofit agencies affiliated
                       with the Committee for Purchase from People Who Are Blind or Severely Disabled.
                          In addition, our recent audit of procurements for Job Corps found that procurement personnel did not always
                       comply with the Federal Acquisition Regulation in obtaining adequate justification for sole source contracts.
                       We also determined that there was a lack of training and inadequate oversight during the contracting process.
                       As a result, contracting integrity, as well as fair and open competition, could be compromised.

         3             Semiannual Report to Congress, Volume 60
Maintaining the Integrity of Foreign Labor Certification




                                                                                                                           SIGNIFICANT CONCERNS
Programs

  M     aintaining the integrity of its FLC programs,
        while also ensuring a timely and effective
review of applications to hire foreign workers, is
                                                            with DOL on behalf of fictitious companies—or
                                                            applications using names of legitimate companies
                                                            without their knowledge.
a continuing challenge for the Department. OIG                 Our audit of the Permanent Labor Certification
investigations, some of which have been initiated           (PERM) system found that ETA had changed its
based on referrals from ETA, have identified fraud          methodology for selecting applications to audit.
against these programs, and these investigations            Furthermore, ETA had not conducted audits of all the
constitute the fastest growing area in our case             applications selected for audit. As employers and
inventory. OIG investigations continue to uncover           representatives such as labor brokers and others
schemes carried out by immigration attorneys, labor         learn which elements in an application are likely
brokers, and transnational organized crime groups,          to trigger an audit, they may be able to structure
some with possible national security implications.          applications in a way that could lessen the likelihood
Further, OIG investigations have revealed schemes           of applications being audited.
involving fraudulent applications that are filed

          “OIG investigations continue to uncover schemes carried out by
          immigration attorneys, labor brokers, and transnational organized
          crime groups, some with possible national security implications.”


Securing Information Technology Systems and
Protecting Related Information Assets
                                                            Management Act (FISMA) audit found that the DOL
  O     ur information technology audits have
        identified access controls, oversight of
contractor systems, and the effectiveness of
                                                            security program did not fully implement minimum
                                                            security controls. We identified pervasive and obvious
the Chief Information Officer’s oversight of the            weaknesses across DOL, including access controls,
Department’s full implementation of mandatory,              certification, accreditation and security assessment,
minimum information security controls as DOL’s most         configuration management, contingency planning,
significant challenges. The OIG has reported on             and incident response. The OIG has identified these
access control weaknesses over the Department’s             same deficiencies in past years’ FISMA audits. The
major information systems since FY 2001. These              recurring cycle of the same weaknesses, especially
weaknesses represent a significant deficiency over          obvious access control vulnerabilities, identified by
access to key systems and may permit unauthorized           the OIG since FY 2006 demonstrates that DOL’s
users to obtain or alter sensitive information, including   information security program must improve its current
unauthorized access to financial records and data.          effort to fully implement and monitor information
   Our FY 2008 Federal Information Security                 security controls throughout the Department.




                                                                                Semiannual Report to Congress, Volume 60            4
5
    EMPLOYMENT   AND   TRAINING PROGRAMS
                  Workforce Investment Act




                                                                                                                             TRAINING PROGRAMS
     The goal of the Workforce Investment Act (WIA) is to increase employment, retention, and
  earnings of program participants. The OIG has conducted numerous audits of the WIA program
  and its grantees since WIA’s enactment, including audits of state WIA expenditures, training and
  educational services provided to dislocated workers, and state-report performance data. The
  Department has implemented many of our recommendations to improve WIA program administration
  and performance. OIG investigations have resulted in the prosecution of individuals who illegally
  obtained WIA funds, thereby denying eligible persons the benefit from employment services. Our
  investigations have also documented conflict-of-interest issues involving program administrators.




                                                                                                                                 AND
Value of High Growth Job Training Initiative




                                                                                                                             EMPLOYMENT
Grants Not Demonstrated
                                          a performance audit of 10 grants
  T      he High Growth Job
         Training Initiative (HGJTI) is
a Presidential initiative created to
                                          from our original 39 grant audit
                                          sample. Based on the Chairman’s
                                                                                completion; product delivery; and
                                                                                required tracking of outcomes.
                                                                                   Second, the justification for
prepare workers for employment            request, we designed this audit to    noncompetitively awarding 9 of
in high-growth areas such as              answer three questions:               the 10 grants was based partly
health care, financial services,             1. Did grantees accomplish         on grantees’ commitment to
and biotechnology. During the             their grant objectives?               provide additional resources of
last semiannual reporting period,            2. Were additional matching        $42.1 million. However, we found
at the request of the Chairman            funds or leveraged resources          that grantees did not provide
of the Senate Appropriations              provided      by    grantees     as   $20.5 million of those funds in part
Subcommittee on Labor, Health             required?                             because they could not provide
and Human Service, Education and             3. Did HGJTI grants result         documentation that they had done
Related Agencies, we conducted            in expanded system capacity for       so. Therefore, the level of services
an audit of 39 high growth grants to      skills training and competency        provided by the grantees may
determine if ETA followed proper          development?                          have been significantly reduced
procedures in noncompetitively               We found that grant objectives     from the levels indicated in the
awarding grants under this                were often unclear. Specifically,     original grants.
initiative.    We found that ETA          seven grantees either did not            Finally, ETA did not determine
could not demonstrate that it             meet all of their objectives or       the usefulness of grant products
followed proper procedures when           the objectives were so unclear        and activities before disseminating
it non-competitively awarded 35, or       that we could not determine           them.        As a result, ETA
90 percent, of high growth grants         whether the grantee delivered the     disseminated unproven products
we reviewed, totaling $57 million.        performance they were funded to       and strategies.
    Phase two of our audit, completed     produce. Grantees did not meet           We recommended that ETA:
during this semiannual reporting          objectives in the areas of training      •     Improve the grant writing,
period, regarding this initiative was     and placement goals; product          solicitation and award process by



         “ETA did not determine the usefulness of grant products and
         activities before disseminating them.”


                                                                                  Semiannual Report to Congress, Volume 60           6
                    developing a process that ensures          replicated.                           this initiative that can be carried
TRAINING PROGRAMS   that grant agreements delineate               ETA generally disagreed with       forward       to   improve     ETA’s
                    clear, concise, and measureable            our findings regarding grant          discretionary grant program. In
                    objectives that can be used to             performance. Specifically, ETA        order to meet the employment
                    determine the success of grant             took exception with our position      and training needs of workers in
                    performance.                               that it was inappropriate to share    the 21st century, it is critical that
                       •     Improve grant monitoring          knowledge gained and products         ETA ensure that it selects the
                    and close out by adhering to its           developed without a formal            best service providers, makes
                    policy that each grant be monitored        evaluation of the quality of the      goals and expectations clear to
                    on an ongoing basis to identify and        products. Moreover, ETA stated        grantees, ensures that success
                    correct problems.                          that it does not have the expertise   can be measured, provides active
                       •     Enhance the effectiveness         or resources to evaluate every        oversight of its grantees, evaluates
                    of HGJTI by evaluating grant               product. ETA further stated that      outcomes, and disseminates and
                    results prior to dissemination to          is was not “necessary or valuable     replicates only those strategies
                    the workforce investment system,           to evaluate every High Growth         and programs that have been
                    and using the results of those             deliverable” before sharing it with   proven to be successful. (Report
                    evaluations to ensure that the             the workforce system.                 No. 02-08-204-03-390, April 29,
    AND




                    most successful strategies are                Much can be learned from           2008)
EMPLOYMENT




                    Former CIETC CEO Pleads Guilty to
                    Misapplication of Funds
                        R  amona Cunningham, the former CEO of
                           the Central Iowa Employment and Training
                    Consortium (CIETC), pled guilty on June 30, 2008,
                                                                                  Des Moines city councilman and former chair of
                                                                                  the CIETC board of directors, who pled guilty to
                                                                                  misapplication of funds in October 2007.
                    to conspiracy, fraud, misapplication of funds, and               In March 2008, a civil settlement agreement,
                    obstruction of an investigation. CIETC is a job training      separate from the criminal case, was entered
                    and educational entity. Jane Barto, the former deputy         into by the U.S. Attorney’s Office, DOL, the U.S.
                    director at Iowa Workforce Development, and Karen             Department of Health and Human Services (HHS),
                    Tesdell, a former chief accountant at CIETC, were             and the State of Iowa, whereby the state agreed to
                    convicted April 24, 2008. Barto was found guilty              repay $1.3 million to the United States as a result
                    of obstruction of an investigation, and Tesdell was           of negotiations with the state over the alleged
                    convicted of conspiracy, fraud, and misapplication of         misappropriation of Federal funds provided to
                    funds.                                                        CIETC through WIA and the Temporary Assistance
                       CIETC was a recipient of millions of dollars in            for Needy Families program.
                    Workforce Investment Act funds. Between 2003 and                 This was a joint investigation with the
                    2006, the defendants participated in a conspiracy             Federal Bureau of Investigation (FBI), the Iowa
                    to obtain government funds and pay about                      State Auditor’s Office, the Iowa Department of Public
                    $1.8 million in excessive salaries and bonuses to             Safety, the Iowa Division of Criminal Investigation,
                    CIETC executives. Tesdell’s and Cunningham’s                  and HHS-OIG. United States v. Cunningham, et al.
                    salaries were approved by Archie Brooks, a former             (S.D. Iowa)
        7           Semiannual Report to Congress, Volume 60
Individual Sentenced for Defrauding DOL of




                                                                                                                          TRAINING PROGRAMS
Disaster-Related Funds
  S    andra K. Howell was sentenced on June 6,
       2008, after being previously found guilty of
charges related to her involvement in a conspiracy
                                                          a Texas-based organization that received and
                                                          disbursed National Emergency Grant (NEG) funds
                                                          for hurricane evacuees through a grant. The trio
scheme to defraud the Federal Emergency                   fraudulently applied for and received NEG funds of
Management Agency (FEMA) and DOL of                       approximately $7,000, and approximately $23,000
approximately $30,000 in disaster-related benefits.       from FEMA after Howell fraudulently claimed that
She and her co-conspirators, Charles and Gregory          her primary residence was in New Orleans. Both
Chaisson, claimed they were victims of Hurricanes         Howell and Charles Chaisson made false claims
Katrina and Rita. Howell was sentenced to 46              that their residence in Lafayette, Louisiana, was
months in prison, 3 years of supervised released,         damaged by Hurricane Rita. In addition, they both
ordered to pay $25,175 in restitution, and a $1,200       made false claims for disaster relief on behalf of
special assessment fee. Her co-conspirators were          Gregory Chaisson.




                                                                                                                              AND
sentenced for their roles in the scheme in December          This was a joint investigation with the FBI, the DHS-
2007 and January 2008, respectively.                      OIG, the United States Postal Inspection Service
   The three devised a scheme to defraud DOL              (USPIS), and the San Angelo Police Department.
through the Concho Valley Workforce Solutions,            United States v. Sandra Howell (N.D. Texas)




                                                                                                                          EMPLOYMENT
Three Plead Guilty in a WIA Conspiracy Fraud
Scheme
  F     or their roles in a conspiracy to defraud the
        United States Government, Lafete Tucker,
Janice Fultz-Gardner, and Gregory Vernon, former
                                                          by a child-care facility owned by Shirley Freeman.
                                                          Vernon authorized reimbursement for the vouchers
                                                          submitted by Freeman to LWIA-20 knowing they
managers at the Louisiana Workforce Investment            were false and, in exchange, Vernon received
Act - District 20 (LWIA), pled guilty on August 18,       several thousand dollars in kickbacks from Freeman
2008. In addition, Shirley Freeman pled guilty            between 2004 and 2005. Additionally, Vernon was an
August 7, 2008, to theft of Workforce Investment Act      independent contractor who received approximately
employment and training funds.                            $44,500 through fraudulent vouchers he submitted
   Between 2002 and 2005, Tucker, who was also            for payment to HHS for counseling services he never
the owner of a social services facility, submitted        rendered.
false vouchers to DOL for services not rendered              Freeman, the owner of a child-care facility,
and expenses not incurred. Specifically, Tucker           submitted vouchers to DOL and HHS attesting that
unlawfully received approximately $104,000 from           she provided care for the same children at the same
DOL and $10,200 from HHS.                                 time, thereby unlawfully obtaining approximately
   Gardner, who was also the owner of a facility          $60,000 in duplicate child-care reimbursement from
providing parenting training and child care,              the DOL.
submitted fraudulent vouchers alleging the lease             This case was investigated by the FBI, HHS-
of office equipment resulting in her unlawful receipt     OIG; Internal Revenue Service (IRS)-Criminal
of approximately $55,636. Additionally, Gardner           Investigation Division; Louisiana Department of
submitted vouchers for payment regarding social           Social Services, Office of Family Support - Fraud
services not rendered, resulting in unlawful receipt of   and Recovery Section; and auditors for the Louisiana
approximately $22,850 from DOL.                           Workforce Investment Board. United States v. Lafete
   Vernon was entrusted with verifying and                Tucker, et al. (E.D. Louisiana)
approving payment of child-care vouchers submitted

              “Gardner submitted vouchers for payment regarding
            social services not rendered, resulting in unlawful receipt
            of approximately $22,850 from DOL.”
                                                                               Semiannual Report to Congress, Volume 60           8
TRAINING PROGRAMS                                              Job Corps
                          Job Corps operates 122 centers throughout the United States and Puerto Rico to provide
                      occupational skills, academic training, job placement services, and other support services, such
                      as housing and transportation, to approximately 60,000 students each year. Its primary purpose
                      is to assist eligible at-risk youth who need intensive education and training services. The OIG is
                      statutorily required to audit Job Corps Centers every three years.
                          Our audit work continues to reveal that some operators of Job Corps Centers overstate their
                      performance results (i.e., student job placement, high school diploma attainment, attendance, and
                      training records) in order to improve the centers’ operating performance, which can result in the
    AND




                      operating contractor receiving greater, performance-based, financial incentives.
EMPLOYMENT




                    Audits of Job Corps Operators Identify Health and
                    Safety Concerns, and Financial and Performance
                    Shortcomings

                      W    e issued three performance audits involving the Job Corps Program. Our audits reviewed operations
                           at 7 centers operated by 2 contractors and the U.S. Department of Agriculture Forest Service.
                    These two contractors and the Forest Service operate a total of 35 centers.


                    Performance Audit of Cleveland and Detroit Job Corps Center
                    Operated by Applied Technology Service, Inc. (ATSI)
                                                                             of 10 contracts awarded without competition. We
                      O     ur audit of ATSI operated centers in Cleveland
                            and Detroit was conducted in response
                    to a hotline complaint alleging that Detroit Job
                                                                             also found that ATSI did not comply with Job Corps
                                                                             requirements for recording and reporting student
                    Corps Center officials improperly reported payroll       attendance at these centers. As a result, on-
                    expenses, improperly conducted GED testing, and          board strength, a key performance measure, was
                    did not address plumbing deficiencies. We did not        overstated.
                    substantiate these specific allegations; however,           We made seven recommendations to Job Corps
                    our audit of Job Corps centers operated by ATSI in       including that it request that ATSI reimburse the
                    Cleveland and Detroit found several deficiencies.        Department for unsupported costs it billed to Job
                       We found that financial management and                Corps and for contracts awarded without full and
                    reporting at the Cleveland and Detroit Center’s          open competition. We also recommended that ATSI
                    was inadequate. Specifically, ATSI did not properly      implement procedures to ensure compliance with
                    support approximately $158,754 of expenses billed        Job Corps requirements. The Office of Job Corps
                    to Job Corps. In addition, Detroit did not follow        concurred with our recommendations and stated that
                    Federal requirements for full and open competition       it will coordinate with ATSI to provide an action plan
                    when it awarded 10 of 11 contracts we reviewed.          to correct the problems we identified. (Report No. 26-
                    Our audit questioned $519,889, the total amount          08-005-01-370, September 30, 2008)




       9            Semiannual Report to Congress, Volume 60
Performance Audit of Laredo and New Haven Job Corps Centers
Operated by Career Systems Development Corporation (CSD)




                                                                                                                      TRAINING PROGRAMS
  W      e also conducted a performance audit
         of CSD which is under contract with Job
Corps to operate 10 centers. Our audit covered the
                                                           We made eight recommendations to the Job Corps
                                                        National Director including requiring CSD to improve
                                                        on-site monitoring and to identify overstatements of
Laredo, Texas, and New Haven, Connecticut, Job          vocational completion rates and on-board strength
Corps centers. Our objectives were to determine         at other centers it manages. We also recommended
whether CSD ensured compliance with Job Corps           that CSD pay any liquidated damages required by
requirements for managing center safety programs,       its contract because of overstating its performance
reporting performance, and managing and reporting       to the Department. Job Corps generally agreed
financial activity.                                     with our recommendations and has shown that CSD
   We found unsafe or unhealthy conditions at New       has taken adequate corrective actions to improve
Haven. These conditions occurred because New            its controls over center safety and performance
Haven officials often did not conduct required safety   reporting.     However, Job Corps did not directly
inspections. When inspections were conducted and        state that it would require CSD to identify on-board




                                                                                                                          AND
problems identified, New Haven officials did not        strength and vocational completion overstatement
ensure that the problems were corrected. Unsafe         or to pay the liquidated damages related to those
conditions included water damaged and collapsing        overstatements. (Report No. 26-08-001-01-360,




                                                                                                                      EMPLOYMENT
ceiling tiles, mold on student dormitory walls, and     September 30, 2008)
missing or inoperable emergency exit signs. We
found that in addition to not conducting the required
safety inspections, New Haven officials also did not
maintain a safety committee as required by Job
Corps; or conduct on-site monitoring to identify and
correct systemic non-compliance with Job Corps
safety and performance reporting requirements.
   We found that reported performance information
at both the Laredo and New Haven Centers was
inaccurate.       Specifically, at Laredo on-board
strength was overstated; student attendance and
leave were not documented as required; and
students were not separated due to unrecorded
absences as required.
   At the New Haven Center, we found that
management reported that students with incomplete
Training Achievement Records had completed
vocational training. We found that incomplete on-
site monitoring at both centers contributed to the
inaccurate performance data both reported.



Performance Audit of Schenck, Flatwoods, and Blackwell Job
Corps Centers Operated by the USDA Forest Service

  F     inally, we conducted a performance audit at three Job Corps centers operated by the Department of
        Agriculture’s Forest Service. As with the centers operated by ATSI and CSD, we found that the Forest
Service did not comply with Job Corps requirements for reporting performance and financial activity. At the
Schenck, Flatwoods, and Blackwell Centers operated by the Forest Service, student achievement and on-
board strength were overstated and none of the three centers could ensure that reported student attendance
was reliable. We made 10 recommendations for improvement. Job Corps responded that it will consider
the non-compliance and wasteful spending noted in our report when making future Forest Service budget
decisions, and will coordinate with the Forest Service to provide an action plan to correct the problems we
identified. (Report No. 26-08-004-01-370, September 30, 2008)

                                                                           Semiannual Report to Congress, Volume 60         10
                    Conclusion
TRAINING PROGRAMS
                        O  ur findings from these Job Corps audits continue to reveal a pattern of inaccurate reporting of
                           key performance measures by center operators that Job Corps relies on to evaluate contractor
                    performance. We also continue to find unsafe and unhealthy conditions in centers that are unacceptable in
                    a Federally run residential program.

                           “Unsafe conditions [at the New Haven Job Corp Center] included water
                         damaged and collapsing ceiling tiles, mold on student dormitory walls,
                         and missing or inoperable emergency exit signs.”


                    Procurement Practices of Job Corps Contracts
                    Need Improvement
    AND




                                                                           were awarded in accordance with proper procurement
                       W     e conducted an audit to determine the
                             impact that the transfer of Job Corps from
                    ETA to the Office of the Secretary had on Job
                                                                           procedures.
                                                                              We identified a number of deficiencies including
EMPLOYMENT




                    Corps procurement and contracting practices. We        contract modifications that were not properly
                    found that the program’s transfer strengthened         justified, reviewed, and approved and necessary
                    procurement controls by separating the procurement     documentation that was not available to support
                    and program functions and that there were fewer        that the contracts were properly awarded. We
                    contract and procurement deficiencies after the        concluded that these deficiencies occurred because
                    transfer. However, improvements are still needed       of inadequate management oversight. We also found
                    to ensure contracts are competitively awarded and      that contract staff did not have adequate training.
                    services are obtained at a reasonable cost.               We recommended that the Assistant Secretary for
                       Our audit covered 34 contracts—18 originated        Administration and Management take steps to ensure
                    by ETA prior to the transfer and 16 by the Office      that management oversight of contract award and
                    of the Assistant Secretary for Administration and      modification processing is conducted and to provide
                    Management (OASAM) which became responsible            staff training to ensure that Federal acquisition and
                    for providing contracting support to Job Corps         that DOL procedures are appropriately followed.
                    after the transfer. We found that nine contracts       The Department agreed with our recommendations,
                    (26 percent) had deficiencies in the processing of     and the OASAM Deputy Assistant Secretary for
                    the awards and/or in modifications to the awards.      Operations stated that there will be an increased
                    Specifically, 7 of ETA’s 18 contracts totaling more    emphasis on DOL’s procurement policy and oversight
                    than $110 million, and 2 of OASAM’s 16 contracts       function. (Report No. 04-08-003-01-370, September
                    totaling $3.9 million, did not demonstrate that they   30, 2008)



                    Audit Resolution: YWCA Repays $303,870

                        B  ased on a 2006 OIG audit, in March 2008, the YWCA of Greater Los Angeles (YWCA) agreed to
                           repay $303,870 to DOL for unallowable costs incurred in operating the Los Angeles Job Corps Center
                    (LAJCC). Our audit questioned $300,870 after it found that the YWCA had charged the Office of Job Corps for
                    the cost of developing two proposals for the operation of the Long Beach Job Corps Center and the LAJCC.
                    Specifically, the YWCA charged this amount to Job Corps contract funds for several thousand hours of staff
                    time spent preparing the proposals. Use of Job Corps contract funds for this purpose violated applicable
                    cost principles. In addition, the audit questioned $3,000 of annual insurance costs for a government vehicle
                    that the CEO of the YWCA used for a three year period. LAJCC had billed the YWCA for the monthly use
                    of the vehicle, but did not bill it for $3,000 in related annual insurance costs. Instead, the Office of Job
                    Corps incorrectly bore these costs. In June 2008, the YWCA repaid the full amount owed without further
                    proceedings. (Report No. 09-06-005-01-370, issued September 29, 2006)

     11             Semiannual Report to Congress, Volume 60
  Foreign Labor Certification Program




                                                                                                                           TRAINING PROGRAMS
     The Employment and Training Administration’s foreign labor certification programs allow
  U.S. employers to employ foreign labor to meet worker shortages by filing labor certification
  applications through ETA’s foreign labor certification process. The H-1B Visa Specialty Workers
  Program requires employers who intend to employ foreign specialty occupation workers on a
  temporary basis to file labor condition applications with ETA stating that appropriate wage rates
  will be paid and workplace guidelines will be followed. The H-2B program established a means for
  U.S. nonagricultural employers to bring foreign workers into the U.S. for temporary employment.
  The Permanent Foreign Labor Certification program allows an employer to hire a foreign worker




                                                                                                                               AND
  to work permanently in the United States.
     OIG investigations have revealed that the foreign labor certification process continues to be
  compromised by unscrupulous attorneys, labor brokers, employers, and others.




                                                                                                                           EMPLOYMENT
Stronger Internal Controls Needed in Program Electronic
Review Management Audit Process to Ensure Integrity of
the Permanent Labor Certification Program

  T     he Program Electronic Review Management
        (PERM) system audit process, implemented in
March 2005, was intended to ensure that applicants
                                                          or applications that did not meet required criteria.
                                                          Certifying labor applications for foreign workers who
                                                          were not eligible for employment in foreign labor
to the Foreign Labor Certification Program (FLC) met      programs could negatively affect the U.S. workforce
eligibility requirements. Through the PERM system         by reducing the number of jobs available for U.S.
employers can obtain permanent labor certification        workers.
for foreign workers to fill permanent job vacancies          Additionally we found that the Permanent Case
in occupations for which qualified U.S. workers are       Management System could not readily provide
unavailable. As part of the application process,          information on the progress of all applications. As a
employers must perform a “labor market test” to           result, ETA may not know how effective its certification
determine whether there are any U.S. workers able,        program or the PERM audit process are in ensuring
willing, qualified, and available in the community        that only eligible applications are approved.
where the job will be performed. Through the PERM            We made three recommendations regarding
system, ETA audits a sample of these applications         the PERM system to: revise the methodology for
to verify that employers properly made their              selecting applications for audit; ensure all applications
determination. The OIG conducted a performance            selected for audit are audited; and ensure that the
audit to determine whether the internal controls over     Office of Foreign Labor Certification (OFLC) updates
the PERM system were adequate. We found that              the Permanent Case Management System to provide
internal controls for the PERM audit system need to       readily available management reports for monitoring
be stronger.                                              the progress of audited applications. ETA strongly
   ETA discontinued certain types of audits in            disagreed with our methodology and specific
December 2005. We also found that ETA was not             conclusions regarding the impact of its decision to
auditing many of the applications that had been           discontinue certain types of audits, but agreed to
selected for either a random or a targeted audit.         implement the report’s three recommendations to
Specifically, our review of 219 applications disclosed    correct the audit’s findings. (Report No. 6-08-003-
that ETA had not audited 63 of those applications. As a   03-321, September 30, 2008)
result, ETA may have certified fraudulent applications

                                                                                Semiannual Report to Congress, Volume 60         12
                     Window Manufacturer Sentenced for Submitting False
TRAINING PROGRAMS    Labor Certifications

                        R   obert Mahood, who had been a fugitive in China, was sentenced on July 25, 2008, to 18 months
                            incarceration and 36 months’ probation for his involvement in an immigration fraud scheme involving
                     the submission of more than 1,400 fraudulent labor certifications. Mahood is owner and manager of East
                     Coast Fabricators (ECF), a window manufacturing
                     company that sponsored more than 250 foreign
                     workers and charged as much as $90,000 for an
                     approved labor certification. Global Recruitment &
                     Immigration Services, a law firm whose owner was
                     sentenced in December 2005 for his involvement in
                     the scheme, filed the fraudulent labor certifications on
                     behalf of ECF.
                        Mahood is the last of nine defendants, including
                     an attorney and a former CIA agent, who have been
    AND




                     convicted and sentenced in this investigation, which
                     resulted in a total forfeiture of $4.6 million. This was
                     a joint investigation with the FBI. United States v.
EMPLOYMENT




                     Robert J. Mahood (E.D.Virginia)


                     Company Sentenced to Pay Nearly $1 Million for
                     Employment-Visa Scam

                       T    he corporate entity, Overseas Employment
                            and Information Service, Inc., doing business
                    as EBI, was sentenced on August 22, 2008, in
                                                                             the names, identifying information, and purported
                                                                             signatures of former EBI clients who had already
                                                                             obtained either their lawful permanent resident status
                    connection with its scheme to submit falsified labor     or citizenship, and, therefore, had no need for a new
                    certifications in order to obtain employment-based       labor certification application.
                    visas for aliens. The company was ordered to pay a          EBI used these approved labor certifications as
                    combined total of $800,000 in criminal fines and asset   the basis for the substitution of other aliens in the
                    forfeiture, $151,000 in victim restitution, and a $400   visa petition process. This served to shortcut the
                    special assessment. The criminal monetary penalty        system and significantly reduce the waiting period for
                    follows a $200,000 civil settlement agreement in         the substitute beneficiaries. EBI filed at least 25 such
                    April 2008 by EBI’s former vice president, Tricia Yoo    documents with DOL and the U.S. Citizenship and
                    Matuszak.                                                Immigration Services (USCIS) during the course of
                       EBI had offices in Maryland and California, and       this conspiracy and charged immigrants $30,000 to
                    provided immigration-related services primarily to       $50,000 per application. This was a joint investigation
                    the Korean and Chinese communities in the United         with U.S. Immigration and Customs Enforcement
                    States, Republic of Korea, and the People’s Republic     (ICE). United States v. Overseas Employment and
                    of China. Beginning in 1999, EBI conspired to file       Information Service, Inc. (S.D. Maryland)
                    falsified labor certification applications that bore


                     Brothers Sentenced for Submitting Fraudulent Labor
                     Certification Applications

                        J ohn Chikwon Hwang, owner and vice president of Brothers Construction Company (BCC), was
                          sentenced on April 18, 2008, to 24 months’ probation and a fine of $5,000 for his involvement in a
                     conspiracy with his brother to submit fraudulent labor certification documents to DOL and other government
                     agencies. His brother, Chichan Hwang. who recruited individuals to apply for fraudulent labor documents,

     13             Semiannual Report to Congress, Volume 60
was sentenced on April 11, 2008, to 33 months of imprisonment and 3 years of probation, and was ordered




                                                                                                                          TRAINING PROGRAMS
to forfeit $300,000. The brothers submitted the fraudulent documents in an effort to obtain green cards for
foreign nationals. The Hwangs charged the individuals more than $27,000 to submit their visa applications.
The brothers then arranged for BCC to provide fraudulent paychecks to the foreign nationals to demonstrate
to DHS and other Federal agencies that the foreign nationals were employed by BCC. To this end, BCC
generated more than $1.1 million in fictitious payroll. This is a joint investigation with the Department
of State-OIG (DOS-OIG), DOS-Diplomatic Security Services (DOS-DSS), U.S. Department of Homeland
Security (DHS), and the Fairfax County (Virginia) Police Department. United States v. John Chikwon Hwang
and United States v. Chichan Hwang (E.D. Virginia)


Two Plead Guilty for Filing Fraudulent Labor Certification
Applications

  I  lya Zherelyev, a bodyguard for the indicted
     business owner of Lynn International (LI), pled
                                                               The defendants allegedly assisted clients in
                                                            making false claims of persecution to immigration




                                                                                                                              AND
guilty on August 26, 2008, to conspiracy, visa/asylum       authorities in order to obtain asylum. For this
fraud, money laundering, conspiracy to commit               service, the clients were allegedly charged a fee of
money laundering, and failure to appear for a court         up to $8,000 per individual and up to $12,000 for a




                                                                                                                          EMPLOYMENT
hearing for his role in an asylum fraud conspiracy          family. It is suspected that the company received
scam. Lynn International is purported to have been          at least $3 million in proceeds from the fraudulent
disguised as a translation service but instead it was       asylum business. This is a joint investigation
used to prepare and file fraudulent labor certification     with ICE, U.S. Department of Housing and Urban
applications and guaranteed its clients that they could     Development-OIG (HUD-OIG), DOS-DSS, the
lawfully obtain permanent residency status. Nelly           USCIS-Office of Fraud Detection and National
Katsman, a translator, pled guilty on September 16,         Security (USCIS-FDNS), FBI, the Northampton
2008, to conspiracy and visa fraud. Zherelyev and           Township, and the Upper Southampton Township
Katsman were previously charged July 29, 2008, with         (Pennsylvania) Police Departments. United States
four other defendants. Their business, LI, is alleged       v. David Lynn, Ilya Zherelyev, Nelly Katsman, et al.
to have filed at least 380 fraudulent labor certification   (E.D. Pennsylvania)
applications for clients between 2003 and 2007.


        “Lynn International is purported to have been disguised as a
      translation service but instead it was used to prepare and file
      fraudulent labor certification applications...”


Labor Broker Enters Guilty Plea for Filing False H-1B
Labor Applications

  D     axesh Patel, the primary owner of Axar Systems, LLC (Axar), pled guilty on June 30, 2008, to
        conspiracy to commit visa fraud. On July 22, 2008, another Axar employee was indicted on identical
charges. As part of the plea, Patel agreed to forfeit $150,000 and dissolve Axar. In the scheme, Patel,
via Axar, filed with DOL labor condition applications that contained false statements. A majority of the
undocumented workers were employed at various locations throughout the United States, rather than the
proposed place of employment submitted on the labor applications, and many were not working as computer
programmers as stated on their labor applications. Many worked as convenience store clerks and made
arrangements with their employer to contract with Axar in an effort to appear as though they were working in
a valid consulting contract. The company used the funds from these individuals to maintain the individuals
on its payroll. This is a joint investigation with ICE-Document and Benefit Fraud Task Force; U.S. Diplomatic
Security Service-Visa Fraud, DHS-OIG, and DHS-SID. United States v. Daxesh Patel (N.D. Georgia)


                                                                               Semiannual Report to Congress, Volume 60         14
                    Business Owner Pleads Guilty to Conspiracy to
TRAINING PROGRAMS   Fraudulently Obtain Employment Visas
                                                                             entities, falsely representing that the undocumented
                      C     harles Keith Viscardi, owner and operator of
                            Viscardi Industrial Services, LLC (VIS), pled
                    guilty on August 12, 2008, to conspiracy to induce and
                                                                             workers would be employed at VIS. The conspirators
                                                                             assisted the undocumented workers in completing
                    encourage illegal immigration. Viscardi and other        the H-2B visas and in filing them with the DOL. After
                    conspirators recruited more than 80 Indian nationals     their arrival in the United States, Viscardi transported
                    who were each willing to pay tens of thousands of        and temporarily housed them and they were granted
                    dollars in exchange for fraudulently obtained H-2B       H-2B visas.         Viscardi and his co-conspirators
                    visas. Five other individuals were indicted March        accepted cash and other forms of payment from the
                    31, 2008, for their alleged roles in the scheme.         undocumented workers. None of the undocumented
                       As part of the scheme, the conspirators submitted     workers was ever employed by VIS; instead they
                    Petitions for Nonimmigrant Worker and other              simply dispersed throughout the country after paying
                    documentation to DHS-Citizenship and Immigration         for their fraudulently obtained visas. United States v.
                    Services (DHS-CIS), DOL, and other government            Charles Keith Viscardi (S.D. Texas)
    AND
EMPLOYMENT




                                           Senior Community Service
                                             Employment Program

                          The Senior Community Service Employment Program is a community service and employment
                       training program for older workers that was originally authorized by the Older Americans Act of
                       1965. The program provides subsidized, part-time community service work based training for low-
                       income persons age 55 or older.




                    ETA Needs to Ensure Grantees Are Aware of Their
                    Responsibility to Safeguard Personally Identifiable
                    Information

                      W       e conducted a performance audit of the
                              SCSEP grant awarded to the National
                    Able Network, Inc. (Able) in response to a hotline
                                                                             medical histories, and financial resources. We
                                                                             advised Able to alert ETA of the PII breach and seek
                                                                             guidance on how to respond. ETA and Able officials
                    complaint alleging that Able reported inflated           subsequently notified the affected participants.
                    performance results. Our audit did not substantiate         We found that ETA has not informed grantees
                    this allegation.                                         of their responsibilities for reporting the loss of PII
                       However, as part of our review, we found that         records. As a result, other grantees may not have
                    Able could not locate SCSEP participant records          reported (or may not be reporting) incidents in which
                    containing personally identifiable information (PII)     security over PII was compromised and therefore
                    for 78 individuals served in California for more         may not have notified individuals whose personal
                    than a three-year period. These participant records      information may have been compromised.
                    contained PII used to establish eligibility for the         The Department’s Chief Information Officer has
                    program including names, Social Security numbers,        been notified of the loss of the PII records; however,


    15              Semiannual Report to Congress, Volume 60
ETA has not yet notified grantees. In its response          for reporting incidents when PII security has been
to our draft report, ETA stated that it will issue a        compromised; and provide training to ETA staff on




                                                                                                                             TRAINING PROGRAMS
Training and Employment Guidance Letter to                  handling PII security incident reports from grantees.
grantees by December 31, 2008, to communicate               ETA agreed with our recommendations and has
PII requirements.                                           planned or taken corrective action to address them.
   We recommended that ETA inform grantees of               (Report No. 02-08-205-03-360, issued September
their responsibilities for safeguarding PII records and     30, 2008)




                                                                                                                                 AND
                                                                                                                             EMPLOYMENT
NAPCA Should Improve Oversight of
Senior Community Service Employment Program

  W       e       conducted
          performance audit in
response to a hotline complaint
                                    a    enrollment, training, and payroll
                                         deficiencies.
                                            We also found that the
                                                                                 ETA $182,178 in questioned costs
                                                                                 for improper payments to the
                                                                                 four Foundation participants; (2)
alleging that officials of the           Foundation’s Executive Director         develop policies and procedures
National Asian Pacific Center on         enrolled four ineligible participants   to prohibit conflicts of interest;
Aging (NAPCA) allowed the Royal          in SCSEP during program years           and (3) develop controls to
Cultural Foundation’s (Foundation)       1994-2005.          The ineligible      effectively identify and correct
Executive Director to enroll             participants were the Director’s        non-compliance with SCSEP
ineligible participants in the Senior    mother, father, and two people          enrollment, training, and program
Community Service Employment             who worked for the Foundation.          management           requirements.
Program (SCSEP) in exchange              We questioned costs of $182,178         NAPCA disagreed with our
for monetary payments.                   for improper payments to these          findings and recommendations;
   While we did not substantiate         four ineligible participants.           however, it stated that it is
that NAPCA officials received               Finally,    we      found     that   planning to provide training and
monetary payments for enrolling          NAPCA could not demonstrate             to ensure that it has controls to
ineligible participants, we did          that enrollment and training            improve its ability to detect and
identify a financial conflict of         requirements were met.            We    correct non-compliance with
interest between NAPCA and the           estimated that NAPCA did not            SCSEP requirements. The Final
Foundation Director. Specifically,       obtain required documentation           Determination to be issued by the
NAPCA leased office space from           to support training for 382 of the      Grant Officer will provide ETA’s
the Foundation Director at below         1,418 (27 percent) participants         decisions regarding the report’s
market rates from 1997 to 2005.          enrolled nation-wide from January       recommendations.           (Report
During that time NAPCA did not           1, 2005, through March 31, 2007.        No. 09-08-001-03-360, issued
conduct all required monitoring             We recommended that ETA              September 30, 2008)
visits and did not identify or correct   require NAPCA to: (1) reimburse




                                                                                  Semiannual Report to Congress, Volume 60         16
17
     LABOR RACKETEERING
                                                                                                                   LABOR RACKETEERING
       The OIG at the DOL has a unique programmatic responsibility to investigate labor racketeering
  and/or organized crime influence against unions, employee benefit plans, and workers. The
  Inspector General Act of 1978 transferred responsibility for labor racketeering and organized
  crime–related investigations from the Department to the OIG. In doing so, Congress recognized
  the need to place the labor racketeering investigative function in an independent law enforcement
  office free from political interference and competing priorities. Since the 1978 passage of the
  Inspector General Act, OIG Special Agents, working in association with the Department of Justice’s
  Organized Crime and Racketeering Section, have conducted criminal investigations to combat
  labor racketeering in all its forms.




  T   raditional Organized Crime: Traditionally, organized crime groups have been involved
      in benefit plan fraud, violence against union members, embezzlement, and extortion. Our
investigations continue to identify complex financial and investment schemes used to defraud
benefit fund assets, resulting in millions of dollars in losses to plan participants. The schemes
include embezzlement or other sophisticated methods, such as fraudulent loans or excessive fees
paid to corrupt union and benefit plan service providers. OIG investigations have demonstrated
that abuses by service providers are particularly egregious due to their potential for large dollar
losses and because they often affect several plans at the same time. As of September 30, 2008,
the OIG’s inventory of more than 200 benefit plan cases included 64 service provider investigations
that had more than $1 billion in plan assets potentially at risk. The OIG is committed to safeguarding
American workers against being victimized by labor racketeering and/or organized crime.



  N     ontraditional Organized Crime: Our current
        investigations are documenting an evolution of labor
racketeering and/or organized crime corruption. We are
finding that nontraditional organized criminal groups are
engaging in racketeering and other crimes against workers in
both union and nonunion environments. Moreover, they are
exploiting DOL’s foreign labor certification and Unemployment
Insurance (UI) programs.



   I mpact of Labor Racketeering on the Public: Labor
     racketeering activities carried out by organized crime
groups affect the general public in many ways. Because
organized crime’s exercise of market power is usually
concealed from public view, millions of consumers unknowingly
pay what amounts to a tax or surcharge on a wide range of
goods and services. In addition, by controlling a key union
local, an organized crime group can control the pricing in an
entire industry.



The following cases illustrate our work in helping to eradicate both traditional and nontraditional labor
racketeering in the nation’s labor unions, employee benefit plans, and workplaces.




                                                                        Semiannual Report to Congress, Volume 60        18
LABOR RACKETEERING                   Benefit Plan Investigations
                          The OIG is responsible for combating corruption involving the monies in union-sponsored
                       benefit plans. Those pension plans and health and welfare benefit plans comprise hundreds of
                       billions of dollars in assets. Our investigations have shown that the assets remain vulnerable to
                       corrupt union officials and organized crime influence. Benefit plan service providers continue to
                       be a strong focus of OIG investigations.



                     Sixty Gambino Organized Crime Family Members
                     Plead Guilty

                       S    ixty of the 62 previously indicted members and associates of the Gambino La Cosa Nostra (LCN)
                            Organized Crime Family (including John D’Amico, acting boss; Domenico Cefalu, acting underboss;
                     Joseph Corozzo, consigliere; and captain, Nicholas Corozzo), have pled guilty, and 36 were sentenced
                     between July and September 2008. The guilty pleas and sentencings follow the February 8, 2008,
                     indictments, on charges including racketeering conspiracy, extortion, theft of union benefits, mail fraud, false
                     statements, loan sharking, embezzlement of union funds, money laundering, illegal gambling, and murder
                     conspiracy. Sentences have included imprisonment of up to 63 months and fines of up to $250,000.
                        Both construction industry principals and union officials were among those who pled guilty for crimes
                     spanning more than three decades. Many of the construction companies involved paid a “mob tax” in
                     return for protection and permission to operate. The convictions illustrate the extent of the Gambino family’s
                     control and influence over the construction industry in and around New York City. This involved the trucks
                     that move construction material and debris around the New York City area, the cement that is poured to
                     build house foundations in Staten Island, the general contractors responsible for building condominiums in
                     New Jersey, and a proposed NASCAR raceway.
                        Ten of the defendants, all members and associates of the Gambino family, have pled guilty to racketeering
                     conspiracy, which include acts involving murder, attempted murder, robbery, extortion, conspiracy to
                     distribute cocaine and marijuana, securities fraud, mail fraud, loan sharking, theft of union benefits, illegal
                     gambling, and bribery.
                        This investigation also identified corruption within Locals 731 and 325 of the Laborers International Union
                     of North America (LIUNA). Louis Mosca, business manager for LIUNA Local 325, pled guilty on May 5,
                     2008, to conspiracy to commit mail fraud in connection with a scheme to purchase a Local 325 union
                     book for the brother-in-law of Gambino Crime Family Captain, Lenny Dimaria. Michael King, a former
                     construction company project supervisor and shop steward for LIUNA Local 731, pled guilty on August 1,
                     2008, to extortion conspiracy. King conspired, along with others, to extort money through the threat of loss
                     of trucking contracts.
                        This ongoing OIG investigation is being conducted with the New York State Organized Crime Task Force,
                     FBI, U.S. Department of Transportation (DOT), Internal Revenue Service (IRS), New York City Department of
                     Investigation, New York City Business Integrity Commission, and the Metropolitan Transportation Authority.
                     United States v. Joseph Agate, et al. (E.D. New York)



                                 “The guilty pleas and sentencings follow the February 8, 2008,
                              indictments, on charges including racketeering conspiracy,
                              extortion, theft of union benefits, mail fraud, false statements,
                              loan sharking, embezzlement of union funds, money laundering,
                              illegal gambling, and murder conspiracy.”

    19               Semiannual Report to Congress, Volume 60
Prominent Real Estate Developer Found Guilty of




                                                                                                                        LABOR RACKETEERING
Charges Related to Defrauding of Teacher’s Union
Pension Plan

  A     ntoin “Tony” Rezko, a prominent real estate
        developer and owner of major restaurant
franchises in the Midwest, was found guilty on June
                                                           members and beneficiaries.         Most of the
                                                           TRS beneficiaries are members of the Illinois
                                                           Federation of Teachers union. The investigation
4, 2008, of several charges, including mail fraud, wire    revealed that Rezko schemed with a TRS board
fraud, bribery, and money laundering. The trial involved   member to receive kickbacks from companies
an ongoing criminal probe into pension kickback            who wanted to secure contracts as TRS service
schemes involving the Illinois Teachers Retirement         providers. This was a joint investigation with the
System (TRS), a $30 billion Illinois state pension fund.   FBI, IRS, and the USPIS. United States v. Antoin
   TRS, the primary defined pension plan for Illinois      Rezko (N.D. Illinois)
schoolteachers, serves approximately 325,000



Operators of Demolition Company Indicted for
Defrauding LIUNA Pension and Employee
Welfare Benefit Plans

  T   he two operators of a
      specialty         demolition
company were named in a 27-
                                         One of the individuals, a
                                      party to a collective bargaining
                                      agreement (CBA) with LIUNA,
                                                                            payroll forms to funding agencies
                                                                            and created fake payroll checks
                                                                            to conceal that employees were
count Federal indictment on           allegedly used non-union night        paid cash at rates well below the
September 2, 2008, charging           work crews in violation of the CBA.   prevailing wage.
them with defrauding the pension      The defendant purportedly paid           The indictment further alleged
and employee welfare benefit          these workers at a substandard        that the two individuals failed to
plans of the Laborers International   rate and intentionally omitted        withhold or pay corporate income
Union of North America (LIUNA),       workers’ hours on submissions to      taxes     totaling  approximately
Local Union 332 (Local 332),          the benefit plans. As part of the     $500,000 since 2004. This is a
numerous income tax violations,       alleged scheme, the company           joint investigation with the IRS-
and conspiracy.                       also submitted fraudulent certified   CID and the FBI.




                                                                             Semiannual Report to Congress, Volume 60        20
                     Asbestos Abatement Contractors Sentenced to Prison
LABOR RACKETEERING   for Stealing Employee Benefits
                                                                              on July 23, 2008, to 12 months’ incarceration and 36
                       T    hree co-conspirators from two asbestos
                            abatement and demolition companies,
                     Interenvironmental,     Inc.,       and     Abcon
                                                                              months’ supervised release. Michael Plisner’s nephew,
                                                                              Elvis Plisner, the signatory on the Collective Bargaining
                     Environmental, Inc., were sentenced for their            Agreement between Interenvironmental, Inc., and the
                     roles in a conspiracy to alter payroll records and       Laborers’ Local Union 455, was sentenced on April
                     failure to make fringe benefit contributions of          18, 2008, to 10 months’ incarceration and 36 months’
                     $202,000 to the Connecticut Laborers Fund, of            supervised release. Elvis Plisner was ordered to pay
                     which Laborers’ Local Union 455 is a part.               a fine in the amount of $5,000.
                            Mark Sergi, owner/operator of Abcon                  All three individuals were also ordered to pay
                     Environmental, Inc., was sentenced on May 27,            restitution jointly and severally in the amount of
                     2008, to 24 months’ imprisonment and 3 years             $202,000 to the Connecticut Laborers Fund. This
                     of supervised release. Sergi was ordered to pay          was a joint investigation with the FBI. United States v.
                     a fine in the amount of $5,000. Michael Plisner,         Plisner and United States v. Sergi (D. Connecticut)
                     owner of Interenvironmental, Inc., was sentenced


                     Business Owner Sentenced to Prison for Labor
                     Embezzlement and Environmental Crimes

                       D     avid Jacobs, president and owner of the former Northwestern Plating Works, Inc. (NPW), was
                             sentenced on July 17, 2008, to 46 months’ imprisonment after pleading guilty earlier this year to
                     benefit fund embezzlement and environmental charges. He pled guilty to embezzling from an employee
                     pension plan and to improperly storing and disposing of hazardous wastes. Jacobs was ordered to pay
                     restitution of $832,890 for the pension fraud and $1,259,695 for the environmental crimes. Between 2001
                     and 2005, he used his role as sole trustee and administrator of NPW’s employee profit sharing plan, which
                     provided retirement income for NPW employees, to embezzle funds. This was a joint investigation with U.S.
                     Environmental Protection Agency-CID and the Employee Benefits Security Administration (EBSA). United
                     States v. David Jacobs. (N.D. Illinois)

                                 “Jacobs was ordered to pay restitution of $832,890 for the
                               pension fraud and $1,259,695 for the environmental crimes.”


                     Three Former HMO Officials Found Guilty of Fraud
                                                                Moyers, the Oath’s vice president,
                       T     he owner and the chief
                             financial officer of The Oath of
                     Louisiana (the Oath), a now-defunct
                                                                pled guilty on May 1, 2008, to
                                                                conspiring to give insurance
                                                                                                      to the Louisiana Department
                                                                                                      of Insurance. By the time the
                                                                                                      Oath was put into receivership,
                     health maintenance organization            regulators financial reports that     the HMO’s liabilities exceeded
                     (HMO), were convicted on May 12,           falsely said the HMO had enough       its assets by about $45 million,
                     2008, on fraud charges related to their    money to pay the medical bills of     representing the amount the
                     operation of the HMO, Louisiana’s          its 82,000 members. Most of these     Oath owed medical service
                     third-largest HMO at the time of           members were covered by ERISA-        providers. The defendants are
                     its failure. Barry Scheur, the Oath        covered benefit plans. The Oath       now awaiting sentencing. This
                     owner, was found guilty of conspiracy      officials had devised a scheme        is a joint investigation with the
                     to commit mail and wire fraud. Robert      using mail and bank wire transfers    USPIS and EBSA.           United
                     McMillan, the chief financial officer,     over more than two years to inflate   States v. Scheur, et al. (E.D.
                     was found guilty of conspiracy,            the HMO’s net worth and its ability   Louisiana)
                     mail fraud and wire fraud. Rodney          to pay claims in reports submitted

     21              Semiannual Report to Congress, Volume 60
          Internal Union Investigations




                                                                                                                      LABOR RACKETEERING
     Our internal union cases involve instances of corruption, including officers who abuse their
  positions of authority in labor organizations to embezzle money from union and member benefit
  plan accounts and defraud hard-working members of their right to honest services. Investigations
  in this area also focus on situations in which organized crime groups control or influence a labor
  organization, frequently to influence an industry for corrupt purposes or to operate traditional vice
  schemes. Following are examples of our work in this area.



Judge Approves Consent Decree for Union Local
Controlled by the Colombo and Genovese
Organized Crime Families

  A    U.S. District Judge in Brooklyn, New York,
       approved a consent decree on July 28,
2008, between Local 14 of the International Union
                                                       top-level officers of Local 14, were the culmination
                                                       of a three-year investigation conducted by the OIG
                                                       with the Federal Bureau of Investigation (FBI) and
of Operating Engineers (Local 14) and the United       the New York State Attorney General’s Organized
States. The consent decree provides for the            Crime Task Force.
appointment of union corruption officers to monitor       The investigation established that the Colombo
the activities of Local 14 and permanently enjoins     and Genovese families exerted control over union
the local from engaging in corrupt activity. It also   representatives to secure payments for no-show jobs
requires the local to institute measures ensuring it   for organized crime associates. The investigation
remains free from corruption and organized crime       also revealed that union members and officials
influence.                                             received kickbacks from those jobs and accepted
   Local 14 is a 1,500-member union representing       labor bribes from construction contractors. Ultimately,
operating engineers working in the construction        48 defendants were convicted of racketeering,
industry in New York City. The consent decree          extortion, mail fraud, and unlawful labor payments,
resolves prospective civil racketeering claims         and related crimes. United States v. Local 14-14B
stemming from several criminal prosecutions. The       of the International Union of Operating Engineers,
criminal cases, which targeted the Colombo and         AFL-CIO (E.D. New York)
Genovese organized crime families as well as former

      “The investigation established that the Colombo and Genovese
      families exerted control over union representatives to secure
      payments for no-show jobs for organized crime associates.”


Crime Family Member and Former Local President
Sentenced on RICO Charges
                                                       incarceration and 24 months’ supervised release, and
  S   alvatore “Hot Dogs” Battaglia, a member
      of the Genovese La Cosa Nostra (LCN)
Family and the former president of Local 1181
                                                       was ordered to pay $255,000 in restitution, forfeiture,
                                                       and fines. He previously pled guilty to RICO charges
of the Amalgamated Transit Union (Local 1181),         relating to extortion and unlawful payments from bus
was sentenced on June 26, 2008, to 57 months’          company owners servicing New York City schools.


                                                                           Semiannual Report to Congress, Volume 60        22
                     Using both his position as president of Local 1181      bribery, and conspiracy. They allegedly solicited
LABOR RACKETEERING   (a union that represents approximately 15,000 bus       and accepted cash payments from bus company
                     employees) and as a member in the Genovese LCN          owners with transportation contracts with DOE. The
                     Family, Battaglia peddled his influence for tens of     suspected payments ranged from several hundred
                     thousands of dollars.                                   dollars to tens of thousands of dollars per year.
                        Battaglia received money from bus companies             Geoffrey Berger and Jeffrey Dunat, New York City
                     that contracted with the New York City Department       Board of Education inspectors, and Doron Winkler, a
                     of Education (DOE), in exchange for having the          retired Chief Inspector of Busing, pled guilty in April
                     union not organize those companies. Battaglia also      2008 to extortion, conspiracy, and theft or bribery
                     received payments from the owners and operators         concerning programs receiving Federal funds. All
                     of a medical center in exchange for Local 1181’s        three received bribes from several bus companies
                     agreement to increase and pay reimbursements            which allegedly also paid bribes to Local 1181 union
                     for services the medical center provided union          officials. This is an ongoing investigation with the FBI
                     members.                                                and DOL’s Office of Labor Management Standards
                        Four current and former employees of the New         (OLMS). United States v. Ianniello, et al. (S.D. New
                     York City DOE Office of Pupil Transportation were       York)
                     indicted in May 2008 on charges of extortion,




                     Past President and CFO of Shasta County Company
                     Pleads Guilty to Embezzlement and Tax Evasion

                       P    eggy Kaye Witts, former president of
                            Voorwood Company, Inc. (VCI), pled guilty on
                     July 21, 2008, to wire fraud and tax evasion, arising
                                                                             year period. She also issued company checks to
                                                                             herself, family members, and others to pay her
                                                                             personal expenses. Further, Witts also admitted to
                     from her embezzlement of more than $850,000 from        tax evasion consisting of her failure to report the
                     VCI’s ERISA-covered Employee Stock Ownership            embezzled money as income and pay the appropriate
                     Plan (ESOP), and failing to report the stolen money     taxes owed. This is a joint investigation with the
                     as income. She began her employment with VCI            EBSA, the IRS-Criminal Investigation Division (CID)
                     in 1991, later becoming the chief financial officer     and the Anderson Police Department (California).
                     (CFO) and president. Witts admitted that she issued     United States v. Peggy Kaye Witts. (E.D. California)
                     duplicate paychecks to herself for more than a four-

   23                Semiannual Report to Congress, Volume 60
Electric Company Owner Guilty of Stealing More Than




                                                                                                                        LABOR RACKETEERING
$869,000 from Union Benefit Plan

  D    onald Dougherty Jr., owner of Dougherty
       Electric, Inc., pled guilty on May 19, 2008, to
unlawful payments to a union official for performing
                                                            Between 2001 and 2005, Dougherty stole more
                                                         than $869,000 from Local 98’s employee benefit
                                                         plans while maintaining an “under the table” cash
more than $115,000 of renovations on the personal        payroll of more than $2.6 million for himself and
residence of the business manager of International       his employees. By operating a cash payroll, he
Brotherhood of Electrical Workers (IBEW) Local 98        avoided paying more than $1.6 million in Federal,
(Local 98) for which the business manager did not        state, and local payroll taxes and the required
pay. He had previously pled guilty April 15, 2008, to    employer contributions to Local 98’s benefit plans.
98 other counts including theft of employee benefit      This was a joint investigation with the FBI, IRS, and
plans, bank bribery, false statements relating to        EBSA. United States v. Donald Dougherty, Jr. (E.D.
health care matters, tax evasion, and filing false and   Pennsylvania)
fraudulent tax returns.



                 “By operating a cash payroll, [Doughtery] avoided
               paying more than $1.6 million in Federal, state, and local
               payroll taxes and the required employer contributions to
               Local 98’s benefit plans.”



Custodian Convicted of Embezzling Thousands in
Union Funds
                                                         that all rental proceeds were forwarded to the
  V    an T. Barnes, a maintenance worker
       employed by the International Brotherhood
of Teamsters Local 705 (Local 705) in Chicago, pled
                                                         union’s accounting department. In 1998, he set
                                                         up a company, Step Time Productions, and listed
guilty on July 30, 2008, to theft or embezzlement        himself as the company’s registered agent. While
of union funds.                                          employed by Local 705, Barnes illegally diverted
      Barnes was hired in 1990 by Local 705 to           $97,661 in rental payments of the auditorium
maintain the union’s properties, including an            to himself and the company. This was a joint
auditorium. In addition to maintenance of the            investigation with the FBI. United States v. Van T.
auditorium, he was responsible for ensuring              Barnes. (N.D. Illinois)



Former Union Bookkeeper Sentenced for
Embezzling Funds from Local

  H    eather Lott, the former bookkeeper and executive assistant to the former president of the International
       Brotherhood of Teamsters Local Union 19 (Local 19) in Houston, Texas, was sentenced July 7, 2008,
to 18 months’ confinement and 3 years’ supervised release and was ordered to pay $140,952 in restitution,
for embezzling funds from Local 19. Between 2003 and 2006, Lott used her position within the local to
write several checks payable to herself, which she subsequently deposited into a personal bank account.
She then falsified union journals, invoices, and vouchers to cover up the embezzlement. This was a joint
investigation with the OLMS. United States v. Heather Lott (S.D. Texas)



                                                                             Semiannual Report to Congress, Volume 60       24
LABOR RACKETEERING      Labor-Management Investigations

                           Labor-management relations cases involve corrupt relationships between management and
                        union officials. Typical labor-management cases range from collusion between representatives
                        of management and corrupt union officials to the use of the threat of “labor problems” to extort
                        money or other benefits from employers.




                     Seven Mob Figures and Associates Pled Guilty to
                     Running Criminal Enterprise

                       O     ne of the Gambino LCN Organized Crime Family’s highest-ranking members in New Jersey (lead
                             defendant), and 22 other made members and associates, including a made member of the Lucchese
                     Crime Family, were charged on May 8, 2008, with running an enterprise that engaged in illegal gambling,
                     extortion, fraud schemes, and labor racketeering.
                        In September 2008, seven of the defendants pled guilty. Michael Divivo, a member of LIUNA Local 1153
                     and a Gambino enforcer, pled guilty to Racketeer Influenced and Corrupt Organization (RICO) conspiracy.
                     Erin Havens-Chock and India Fugate, Gambino associates, pled guilty to charges of wire fraud. Gambino
                     associates Charles Russo, Gennaro Forte, and Eric and Carmine Maione pled guilty to operating an illegal
                     gambling business.




                        Among other charges in the indictment, which details a pattern of racketeering activities by the defendants
                     in New Jersey and elsewhere from about 2002 to the present, is a scheme to circumvent and ignore
                     requirements of a CBA between a construction company and the International Union of Operating Engineers,
                     Local 825 (Local 825). The lead defendant allegedly conspired with a Lucchese Organized Crime Family
                     member and a business organizer of Local 825, by accepting approximately $20,000 to allow non-union
                     labor at a car dealership construction project.



    25                Semiannual Report to Congress, Volume 60
                                                                                                                       LABOR RACKETEERING
       “The demolition company allegedly paid more than $35,000 in cash
     to the Gambino associate who had been appointed as the job steward
     for Local 1153 at the construction site.”

   The indictment also alleges a similar scheme in which the lead defendant and a reputed Gambino
associate conspired with a business agent of LIUNA Local 1153, to allow a demolition company to use non-
union labor at a project, which violated its CBA with Local 1153. The demolition company allegedly paid
more than $35,000 in cash to the Gambino associate who had been appointed as the job steward for Local
1153 at the construction site.
   Additionally, the lead defendant and another reputed high-ranking Gambino member in New Jersey are
also charged with defrauding their employer, a construction company, at a bridge construction project. The
two were purportedly paid for full-time employment, when, in fact, they alternated work weeks with each
other, so that each of them was at work only part-time.
   This is a joint investigation with the FBI, the New Jersey State Police, and the Union County, New Jersey,
Prosecutor’s Office. United States v. Andrew Merola et al. (D. New Jersey)




Twelve Union Officials and Members of Operating
Engineers Local 17 Indicted

  T    welve union officers and members, including the president/business manager of IUOE Local 17, were
       charged on April 1, 2008, with several counts, including RICO conspiracy, Hobbs Act conspiracy,
and extortion. Local 17 represents operators of heavy equipment and is involved in some of the largest
construction projects in the Buffalo, New York, area. Those charged allegedly participated in a criminal
enterprise with the wrongful intent of forcing contractors to use unwanted union labor. Construction company
owners, who refused Local 17’s demands to hire its members, were subjected to significant vandalism at
work sites, construction delays due to picketing activities, physical violence, and even death threats. As a
result of the indictment, the General President of the IUOE placed Local 17 under International Supervision
commencing on April 14, 2008, until further notice. This is a joint investigation with the FBI and the New
York State Police.


                                                                            Semiannual Report to Congress, Volume 60       26
                      Construction Contractors and Union Officials Involved
LABOR RACKETEERING    in Labor Bribes in Exchange for Allowing Nonunion
                      Workers on New Jersey Construction Projects

                         T  he former president and several other high-
                            ranking union officials of the International Union
                      of Operating Engineers (IUOE), Local 825 (Local
                                                                                 Peter Stannemar, the former Local 825 president,
                                                                                 was sentenced on September 16, 2008, to 27 months’
                                                                                 incarceration, to be followed by 3 years of supervised
                      825) pled guilty and were sentenced for their roles        release. He was further ordered to pay a $20,000 fine
                      in conspiring to demand and receive bribes from            for conspiring to receive bribes of at least $112,000 from
                                                                                 contractors.
                      construction contractors. Several of the contractors
                      have also pled guilty and been sentenced in this           Alan Cerra, president of Cerra Construction Inc., pled
                      extensive bribery scheme regarding Local 825’s             guilty on August 27, 2008, to conspiracy to violate the
                      involvement in New Jersey construction projects.           Taft-Hartley Act.
                         This is a joint investigation with the FBI, IRS, and
                      EBSA. United States v. Craig Wask (D. New Jersey)          Manuel Pinto, president of Manny’s Master Masonry,
                                                                                 was sentenced on July 9, 2008, to 8 months’ home
                                                                                 confinement to be followed by 3 years of supervised
                                                                                 release. Pinto was further ordered to pay a $3,000
                                                                                 fine. Pinto bribed co-defendant Michael Giangrande,
                                                                                 Local 825 lead engineer, to allow him to use non-union
                                                                                 workers in violation of the CBA.

                                                                                 George Horbach, a former Local 825 lead engineer, pled
                                                                                 guilty on July 7, 2008, for his role in the conspiracy to
                                                                                 accept bribes from Frank Impeciati, while Horbach was
                                                                                 the lead engineer on a construction project.

                                                                                 Frank Impeciati, owner of Blue Ridge Erectors,
                                                                                 was sentenced on July 7, 2008, to 5 months’ home
                                                                                 confinement to be followed by 5 years of supervised
                                                                                 release. Impeciati was also ordered to pay a $13,500
                                                                                 fine.

                                                                                 The former business manager of Local 825 was named
                                                                                 in an 18-count superseding indictment charging him
                                                                                 on June 25, 2008, with multiple violations of the Taft-
                                                                                 Hartley Act, embezzlement, and conspiracy.

                                                                                 Both Anthony Mann, a former Local 825 lead engineer,
                                                                                 and Arthur Heimall, a retired Local 825 business agent,
                                                                                 pled guilty in May 2008, to conspiracy to violate the
                                                                                 Taft-Hartley Act for their role in accepting bribes from a
                                                                                 contractor in exchange for allowing contractors to use
                                                                                 non-union labor at a project.

                                                                                 George Coyne, owner of a construction company that
                                                                                 had a CBA with Local 825, pled guilty on September
                                                                                 29, 2008, to conspiracy to violate the Taft-Hartley Act.
                                                                                 Coyne’s company was the main contractor at a golf
                                                                                 course project in New Jersey. From 2003 to 2006,
                                                                                 Coyne paid between $70,000 and $120,000 in cash
                                                                                 bribes to Craig Wask, a former Local 825 business
                                                                                 agent, in order for Coyne and his subcontractors to be
                                                                                 permitted to use non-union operating engineers at the
                                                                                 project. Coyne also paid Wask approximately $6,000 to
                                                                                 obtain union books for three of his employees.




   27                Semiannual Report to Congress, Volume 60
28
     WORKER BENEFITS PROGRAMS
WORKER BENEFITS PROGRAMS    Unemployment Insurance Programs

                                  Enacted more than 60 years ago as a Federal-state partnership, the Unemployment Insurance
                               (UI) program is the Department’s largest income maintenance program. This multibillion-dollar
                               program assists individuals who have lost their jobs through no fault of their own. While the
                               framework of the program is determined by Federal law, the benefits for individuals are dependent
                               on state law and are administered by State Workforce Agencies in 53 jurisdictions covering the
                               50 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands under the oversight
                               of ETA.
                                   OIG audits conducted after the 2005 hurricanes demonstrated the importance of effective
                               controls to ensure that unemployment benefits reach only eligible persons. After the hurricanes
                               in 2005, the OIG focused attention on administration of the Disaster Unemployment Assistance
                               (DUA) program. In addition to our audit work, the OIG actively performs criminal investigations and
                               refers for prosecution cases that involve individuals who defraud unemployment benefit programs.
                               Recent investigations have documented the manner in which criminals steal identities to file for
                               fraudulent UI benefits.


                           More Than $100 Million in Potential Overpayments of
                           Hurricane-Related Unemployment Benefits

                               H   urricanes Katrina and Rita
                                   devastated the Gulf Coast
                            Region in the summer of 2005,
                                                                      our interim results to ETA through
                                                                      a series of Management Letters.
                                                                      We also issued an audit report
                                                                                                            recommendations       that
                                                                                                            develop nationally coordinated
                                                                                                            contingency plans that provide
                                                                                                                                          ETA:


                            forcing numerous local employers          on potential overpayments in          alternatives for individual states
                            out of business and resulting in          Louisiana because the State           to adopt in processing DUA and
                            an unprecedented number of                did not verify claimants’ Social      UI when normal processing
                            workers becoming unemployed.              Security numbers.                     is disrupted by disasters or
                            Individuals unemployed as a                  Based on these audits, we          other reasons; require states to
                            result of the hurricanes could            previously recommended that           suspend DUA and UI payments
                            claim benefits under one of two           ETA:      improve     overpayment     for a period of time for claimants
                            unemployment        compensation          prevention      and      detection;   who cannot provide adequate
                            programs delivered by the states          oversee states’ efforts to recover    proof of employment; and promote
                            in partnership with DOL: State UI         erroneous payments; and ensure        data sharing among states to
                            or DUA.                                   states take appropriate actions       minimize duplicate payments.
                               In prior periods, we audited           against claimants found to have       ETA generally agreed with our
                            payments under the UI and                 obtained benefits fraudulently.       recommendations and has either
                            DUA      programs    to    assess            During this reporting period,      planned or initiated corrective
                            internal controls over states’            we issued a summary report            actions. (Report No. 06-08-001-
                            claims initiation and payment             to provide a complete picture         03-315, issued June 12, 2008)
                            processes and to identify potential       of the results of our work. This
                            overpayments. We communicated             summary report made additional




       29                  Semiannual Report to Congress, Volume 60
Conspirator Establishes Fictitious Companies in Order




                                                                                                                          WORKER BENEFITS PROGRAMS
to Collect UI Benefits

  R     obert Lee Ardis was sentenced on June 5, 2008, to 42 months’ incarceration, 3 years’ supervised
        release, and restitution of $136,908. Ardis previously pled guilty to one count of mail fraud related
to his orchestration of a fraudulent UI scheme that resulted in fraudulent claims being paid by the State of
Michigan UI Agency. From 2004 to 2007, he established at least three fictitious companies. Ardis then
recruited individuals, or stole their identities, in order to file fraudulent UI claims against wages he reported
as having paid the individuals through the companies. Ardis filed quarterly earnings reports with the State
of Michigan for these employees purporting to be full-time employees for the companies, and caused the
benefit checks to be mailed to mailboxes he controlled.
   In April 2008, 18 co-conspirators who received fraudulent UI benefits as a result of their participation in the
scheme were administratively charged by the State of Michigan. There was a restitution order of $121,535
as well as penalties of $485,885 in this case. This was a joint investigation with the State of Michigan
Unemployment Insurance Agency. United States v. Robert Lee Ardis (E.D. Michigan)




Several Sentenced for Stealing UI Benefits from the
Texas Workforce Commission

  A      lbert Henson, Jr., Latisha Slaughter, Theresa
         Sowels, and Mernika Thomas were sentenced
between June and August 2008 on several charges
                                                           the money from the UI benefits to pay for goods and
                                                           services for themselves. Henson was sentenced to
                                                           70 months’ incarceration and 3 years of supervised
for their roles in a UI and identity theft fraud scheme.   release, and was ordered to pay $102,727 in
The defendants and two other accomplices, Lonnie           restitution. Thomas was sentenced to 3 years’
Oliver, Jr., and Pamela Sowels, illegally obtained         probation and 240 days of home confinement, and
UI benefits from the Texas Workforce Commission            was ordered to pay $24,708 in restitution. Slaughter
(TWC) by stealing the identities of several victims and    was sentenced to 3 years probation and was ordered
filing fraudulent UI claims using the stolen identities.   to pay $1,770 in restitution. Sowels was sentenced to
They obtained names, Social Security numbers, and          5 years’ probation with 6 months’ home confinement
dates of birth of individuals without their knowledge.     and was ordered to pay $9,296 in restitution. This
They further provided TWC with names of bogus last         was a joint investigation with the Texas Workforce
employing units and addresses, as well as claimant         Commission and the USPIS. United States v. Lonnie
mailing addresses, which they controlled. They used        Oliver, Jr., et al. (N.D. Texas)




Individual Sentenced for Defrauding Disaster
Unemployment Assistance Program

  M     ichael Harris was sentenced on July 11, 2008, to 18 months’ incarceration and 2 years of supervised
        release, and ordered to pay $50,717.18 in restitution for fraudulently filing for and receiving DUA
benefits relating to the Hurricane Katrina disaster. Harris’s girlfriend and co-conspirator, Kenyara Batiste,
was sentenced in January 2008. Batiste, who used identities from a previous scheme in which she acted
as an identity broker, implicated Harris in the DUA theft. The two were linked to approximately 20 separate
claims that went to two addresses in Texas. Harris’s Federal sentence will begin at the completion of his
state sentence of 5 years of hard labor on an unrelated weapons and drug conviction. United States v.
Michael Harris (N.D. Texas)


                                                                               Semiannual Report to Congress, Volume 60            30
                           Grocer Sentenced for Money Laundering
WORKER BENEFITS PROGRAMS
                               A   bdulla Kasem Ahmed Muthana (Muthana), the
                                   owner of Ranchito Markets, was sentenced on
                            June 2, 2008, to 30 months in prison and 36 months
                                                                                     the amount laundered), and remitted the remaining
                                                                                     proceeds back to the person in cash. In November
                                                                                     2006, after Muthana was initially indicted for money
                            of supervised release, ordered to forfeit $220,306,      laundering, he transferred approximately $55,000
                            and to pay a special assessment fee of $600, as          in monies that were proceeds of illegal activity to a
                            a result of his previously pleading guilty to money      bank account located in Bahrain, which was, in fact,
                            laundering charges. Between 2005 and 2007,               an undercover bank account.
                            Muthana used his business to launder approximately          This was a joint investigation with the Fresno FBI
                            $350,000 in monies that were the proceeds of an UI       Office Joint Terrorism Task Force and the California
                            benefits fraud scheme. Muthana accepted scores           Employment Development Department (EDD).
                            of checks that were proceeds of fraud, collected         United States v. Abdulla Kasem Ahmed Muthana
                            his transaction fee ($50 per check or 12 percent of      (E.D. California)

                                           “Between 2005 and 2007, Muthana used his business to
                                         launder approximately $350,000 in monies that were the pro-
                                         ceeds of an UI benefits fraud scheme.”


                            California Man Steals More Than
                            500 Identities to Defraud
                            UI Program

                               C   ruz Mendoza, also known as “Carlos Espindola,” was
                                   sentenced on July 7, 2008, to 30 months in prison and
                            36 months of supervised release, and ordered to pay $590,450
                            in restitution for his scheme to defraud the UI program in
                            the State of California. Mendoza obtained and used stolen
                            personal identity information to file fraudulent UI claims with the
                            California EDD, and caused the mailing of thousands of
                            fraudulent UI checks to be sent to addresses he controlled.
                            The UI scheme involved more than 500 stolen identities
                            of unknowing individuals obtained from stolen payroll lists
                            and stolen credit applications from southern and central
                            California companies. This was a joint investigation with the
                            California EDD and USPIS. United States v. Carlos Espindola
                            (E.D. California)




       31                  Semiannual Report to Congress, Volume 60
                 Wage and Hour Programs




                                                                                                                          WORKER BENEFITS PROGRAMS
     The Davis-Bacon Act and related acts, such as the Copeland “Anti-Kickback” Act, require the
  payment of prevailing wage rates and fringe benefits on federally financed or assisted construction.
  The McNamara-O’Hara Service Contract Act requires the payment of prevailing wage rates and
  fringe benefits to service employees on federally financed service contracts. The OIG selectively
  focuses on investigating violations by contractors engaged in Federal construction projects who
  submit falsified certified payroll records in violation of the Copeland Act.




Construction Company Officials Plead Guilty to
Copeland Anti-Kickback Act Violations

                                                           work that they had not performed. In addition,
  R     omeo Palma Cruz, the owner of Marikina
        Construction Corporation (Marikina), pled
guilty on August 28, 2008, to charges of mail fraud
                                                           the two conspired to orchestrate illegal payments
                                                           between Marikina and CDS Engineers, a wholly
and conspiracy related to his role in one of the largest   owned subsidiary of SPI.
fraud schemes ever perpetrated against the Federal            The scheme involved 347 DBE subcontracts on
Disadvantaged Business Enterprise (DBE) program.           bridge projects awarded through PENNDOT. Between
Timothy Hubler, the general manager of Schuylkill          1994 and 2007, Marikina became PENNDOT’s
Products, Inc. (SPI), pled guilty on April 15, 2008,       largest recipient of DBE-designated funds. Marikina
to conspiracy to defraud the U.S. Department of            was used as a front company to obtain PENNDOT
Transportation the Pennsylvania Department of              contracts valued at $121 million under the DBE
Transportation (PENNDOT), and various general              program.
contractors in connection with the DBE program.               This is a joint investigation with the FBI, DOT-OIG,
Cruz and Hubler prepared phony certified payroll           and the IRS Criminal Investigation Division. United
reports to the general contractor and to DOL falsely       States v. Timothy G. Hubler and United States v.
indicating that Markina employees had performed            Romeo P. Cruz (M.D. Pennsylvania)




                                                                               Semiannual Report to Congress, Volume 60            32
                            Hospital Transport Company Enters Guilty Plea for
WORKER BENEFITS PROGRAMS    Benefit Plan Embezzlement

                               M     ercy Regional Health Systems, Ltd. (Mercy),
                                     pled guilty on August 21, 2008, to false
                            statements relating to embezzlement from an
                                                                                   employees’ benefit plans as required. In addition,
                                                                                   false statements made by Hobbs regarding health
                                                                                   insurance premiums caused employees to file
                            employee benefit plan, health care fraud, and mail     medical claims of more than $100,000 that have
                            fraud. On that same date, Clayton W. Hobbs, who        not been paid. Additionally, they failed to pay
                            operated Mercy from 2002 to 2008, pled guilty to       approximately $1.7 million in Federal taxes. After
                            failure to pay Federal employment taxes.               Hobbs’ arrest, the judge appointed a receiver to
                               Hobbs and Mercy contracted with the U.S.            operate Mercy until such time as its assets can be
                            Department of Veterans Affairs (V.A.) to provide       sold to provide restitution to employees.
                            ambulance and hired car services based out of             This case was investigated by members of the
                            a V.A. hospital in Illinois. Mercy’s contract with     Health Care Taskforce for the Southern District
                            the V.A. required the payment of prevailing wage       of Illinois, including IRS-CID, HHS-OIG, EBSA,
                            and fringe benefits as mandated by the Service         FBI, USPIS, the Franklin County (Illinois) Sheriff’s
                            Contract Act. Hobbs and Mercy failed to pay the        Department, and the Illinois State Police. United
                            prevailing wage and fringe benefits required by the    States v. Clayton W. Hobbs and United States v.
                            contract. They also failed to make contributions to    Mercy Regional Health Systems, Ltd. (S.D. Illinois)




                                       “False statements made by Hobbs regarding health insurance
                                      premiums caused employees to file medical claims of more than
                                      $100,000 that have not been paid. Additionally, [Hobbs and
                                      Mercy] failed to pay approximately $1.7 million in Federal taxes.”



       33                  Semiannual Report to Congress, Volume 60
Office of Workers’ Compensation Programs




                                                                                                                      WORKER BENEFITS PROGRAMS
     The Employment and Standards Administration’s Office of Workers’ Compensation Programs
  (OWCP) administers the Federal Employees’ Compensation Act (FECA) program and three
  other disability compensation programs, which provide wage replacement benefits, medical
  treatment, vocational rehabilitation, and other benefits to certain workers for work-related injuries
  or occupational disease. The FECA benefits are charged to the employing Federal agencies that
  rely upon OWCP to adjudicate claims eligibility and to pay compensation benefits and medical
  expenses. OWCP has similar responsibilities for Black Lung, Longshore and Harbor Workers, and
  Energy Employees Occupational Illness Compensation programs financed by a combination of
  Federal and industry funds.




Former Postal Carrier Sentenced to Jail and More Than
$71,000 Restitution

  B     enjamin Colbert, a former letter carrier with
        the United States Postal Service (USPS),
was sentenced on April 10, 2008, to 30 months’
                                                        pain that radiated into his legs. He claimed physical
                                                        limitations related to sitting, walking, reaching,
                                                        bending, stooping, operating a motor vehicle, lifting,
incarceration and 3 years’ supervised release, and      and squatting.
ordered to pay restitution in the amount of $71,514,       An anonymous complaint was received by
after pleading guilty in January 2008 to making         USPS-OIG regarding the claimant’s activities in
false statements to obtain FECA benefits. Colbert       the community, including playing golf at a local
worked for USPS from 1987 until he sustained a          course. While at the golf course, Colbert was
job-related injury in March 2004. He subsequently       observed swinging golf clubs, carrying heavy bags
began receiving FECA benefits in September              of equipment, and driving golf carts. This was a joint
2004. Colbert and his physician reported to OWCP        investigation with the USPS-OIG. United States v.
that his disability was permanent and that he was       Benjamin F. Colbert (M.D. Georgia)
unable to perform his job due to constant lumbar



FECA Claimant Pleads Guilty for Falsely Obtaining and
Selling Pain Medication


  A    nnell Johns, a former USPS employee, pled guilty on July 1, 2008, to one count of fraud to obtain
       FECA benefits after being indicted in April 2008 for a scheme in which she sold prescribed pain
medication she received as a FECA benefit recipient. Johns injured her neck, back, and face in December
1992 while working for the USPS. The claimant concealed the fact that she was prescribed large amounts
of narcotic pain medication by her OWCP physician while receiving identical drugs in large quantities from
two other physicians. This was a joint investigation with USPS-OIG. United States v. Annell Johns (M.D.
Florida)




                                                                           Semiannual Report to Congress, Volume 60            34
                           Son Steals Benefits by Forging DOL Forms With His
WORKER BENEFITS PROGRAMS   Deceased Father’s Signature

                             D    irulislam Bilal Abdullah pled guilty on August 5, 2008, to theft of government property and making
                                  a false statement to obtain $144,366 in FECA compensation to which he was not entitled. In
                           1979, Abdullah’s father, a Defense Department employee who suffered from asbestosis, began receiving
                           approximately $2,500 per month in FECA benefits until his death in November 1999. Following his father’s
                           death, Abdullah completed and forged his father’s signature on DOL forms to continue receiving benefits.
                           The funds were deposited into a checking account to which Abdullah had access. The benefits were
                           terminated in January 2004, when bank officials notified OWCP of the death of Abdullah’s father. United
                           States v. Dirulislam Bilal Abdullah (E.D. California)




                           Doctor Sentenced for Submitting More Than $5 Million
                           in Fraudulent Claims
                                                                                    were rendered. McLaren submitted thousands
                             M     artin R. McLaren, an anesthesiologist
                                   and owner of the Pain Management
                           Center (PMC), was sentenced on July 11, 2008,
                                                                                    of fraudulent claims that totaled in excess of
                                                                                    $5 million, of which $1.75 million was fraudulently
                           to 37 months of incarceration and ordered to             billed to OWCP. Several of the codes used to bill
                           pay $5 million in restitution, forfeiture, and a civil   the programs required equipment PMC did not own.
                           settlement for making false statements to obtain         In other cases, he billed the programs for patient
                           payment for services he did not provide. From            consultations he had not provided. This was a joint
                           2000 to 2006, he defrauded various health care           investigation with the FBI, HHS-OIG, and Office
                           benefit programs, including OWCP by billing for          of Personnel Management-OIG. United States v.
                           medical services, when, in fact, no such services        Martin R. McLaren (D. of Columbia)


                                            “McLaren submitted thousands of fraudulent claims that
                                          totaled in excess of $5 million, of which $1.75 million was
                                          fraudulently billed to OWCP.”



                           Individual Sentenced for Defrauding
                           Black Lung Program

                             L   inda Allen, the daughter of a former Federal Black Lung Benefits recipient who died in January 1998,
                                 was sentenced on April 1, 2008, to 6 months’ home detention and 36 months’ probation, and ordered
                           to pay $48,524 in restitution in connection with her conviction of fraudulently obtaining Black Lung Disability
                           Trust Fund benefits in 2007. Allen forged her mother’s signature on forms she submitted to OWCP after her
                           mother’s death in order to continue receiving her mother’s benefits. She perpetrated this scheme between
                           1998 and 2006, causing benefit payments to be electronically transferred to her mother’s bank account to
                           which she had access. United States v. Linda Allen (N.D. Alabama)




       35                                                                                    Semiannual Report to Congress, Volume 60
36
     WORKER SAFETY, HEALTH,   AND   WORKPLACE RIGHTS
WORKPLACE RIGHTS          Mine Safety and Health Administration
                         Audit Resolution: Departmental Actions To Implement OIG
                         Recommendations To Improve Miner Safety
                            During the previous semiannual period, we             review program intended to provide reasonable
                         completed audits of the Department’s Mine Safety         assurance that MSHA consistently complies with
                         and Health Administration’s (MSHA) process used          all policies and procedures, and that it completes
                         to approve the roof control plan at Utah’s Crandall      all mission critical enforcement activities. The
                         Canyon Mine, MSHA’s statutory mandate to inspect         Accountability Program is now risk-based and
                         underground coal mines, and MSHA’s process for           designed to more effectively evaluate and improve
     AND




                         determining whether fatalities are mining related.       the overall performance of MSHA enforcement
                         Each of these audits disclosed shortcomings that         personnel and their activities.
                         could jeopardize miners’ safety.                            MSHA revised its General Coal Mine Inspection
WORKER SAFETY, HEALTH,




                            MSHA took significant steps to address our            Procedures and Inspection Tracking System
                         recommendations during this semiannual reporting         Handbook.        The revised Handbook contains
                         period.      In response to our recommendations to       documentation requirements for all General and
                         improve its process for approving roof control plans,    Regular Safety and Health Inspection Procedures,
                         MSHA now requires documentation explaining               and requires supervisory certifications.
                         the rationale to support roof control approval              MSHA generally agreed to the seven
                         decisions and associated six-month plan reviews.         recommendations in our audit on chargeable
                         Documentation is to be maintained in the mine’s roof     fatalities and has stated that it will complete the
                         control plan file.                                       revision of its Accident/Investigations Handbook
                            In addition, MSHA issued a memorandum to all          by January 1, 2009. MSHA has stated that policy
                         District Managers regarding rescue and non-rescue        changes will include developing and implementing
                         personnel restricting underground access to mine         a standard protocol for first responders, developing
                         employees and contractors, state and Federal mining      policies and procedures to require that the initial
                         officials, labor representatives, mine rescue teams,     chargeability determination for all reported fatalities
                         and necessary consultants.                               be made by an individual outside the District,
                            MSHA has also been active in addressing the           establishing and requiring a standard investigative
                         recommendations made in our audit of its underground     protocol, and establishing a system to ensure that all
                         coal mine inspection process. In response to direction   facts and information used to reach a chargeability
                         from Congress, MSHA stated that it has hired more        decision are supported by documentation.
                         than 360 additional enforcement personnel as of             MSHA has started posting information of all
                         September 30, 2008, and that it intends to continue      reported fatalities, both chargeable and non-
                         hiring additional enforcement personnel to maintain      chargeable mining deaths, on its Web site. MSHA
                         an enforcement level of 757 inspectors. Further,         is continuing to work toward implementing the OIG’s
                         MSHA has reported that it completed 100 percent of       recommendation that MSHA’s Fatality Review
                         the required inspections for FY 2008.                    Committee include a member who is not a current or
                            MSHA revised its Accountability Program, a peer       former employee of either DOL or a mine operator.




       37                Semiannual Report to Congress, Volume 60
38
     DEPARTMENTAL MANAGEMENT
DEPARTMENTAL MANAGEMENT                   Departmental Management
                          Stronger Controls Over Sole Source Procurement
                          Needed

                            W       e conducted an audit to determine if the
                                    Department followed proper procurement
                          procedures when it awarded sole source contracts.
                                                                                          Specifically, we found:

                          Our audit reviewed contracts awarded by the                     • Justifications to award sole source contracts
                          Office of Administrative Services and Management                were missing, inadequate or lacked required
                          (OASAM), MSHA, BLS, and ETA. In FY 2007, the                    reviews and approvals (21 occurrences);
                          Department awarded 809 sole source contracts
                          totaling over $47 million. Our audit sample contained           • Documentation of the fair and reasonable
                          62 sole source contracts. We found that the majority            price determination for sole source contacts
                          of sole source contracts in our sample, 41 contracts            was not sufficient (29 occurrences);
                          totaling $15.4 million, lacked sufficient justification or
                          documentation required for sole source awards.                  • Required conflict of interest certifications
                              As a result of relying on sole source contracts and         were not obtained from program officials
                          not following required contracting procedures, the              requesting the sole source contract for any of
                          Department could not demonstrate that it made the               the 62 contracts in our sample;
                          best decisions in awarding these contracts to carry
                          out DOL activities.                                             • No evidence that the contracting officer
                              In addition, OASAM could not locate five contract           submitted the offering notice to the Small
                          files we requested because it did not have an                   Business Administration for an 8(a) sole source
                          adequate inventory control system in place. Without             award (1 occurrence).
                          these files, DOL cannot provide a complete history of
                          the procurement actions or the basis for its decisions
                          and would also be unable to provide information for          actions. The OASAM Deputy Assistant Secretary for
                          other purposes such as Congressional and Freedom             Operations disagreed with our conclusions about the
                          of Information Act requests.                                 lack of approvals for a sole source justification for a
                              We recommended the Assistant Secretary for               $1 million contract and the lack of conflict of interest
                          Administration and Management              develop and       certifications for program officials requesting the sole
                          implement policies and procedures requiring                  source contract as he believed that OASAM had
                          supervisory reviews for all contracting actions and          complied with DOL policy. Nevertheless, he stated
                          conduct post-award quality control reviews. We               that guidance to address our recommendations
                          further recommended that OASAM implement a                   would be issued in FY 2009. (Report No. 03-08-002-
                          procurement action file inventory control system             07-711, September 30, 2008)
                          that provides accountability for all procurement


                          Controls Over DOL’s Records Management Program
                          Should Be Strengthened

                            T    he Federal Records Act of 1950 requires that each Federal agency establish and maintain an active
                                 records management program. The Department’s records management program consists of records
                          creation, maintenance and use, and disposition of records to achieve adequate and proper documentation
                          of the Department’s policies and transactions.
                             We conducted an audit of the records management program to determine whether DOL has sufficient
                          controls to ensure that records are preserved in accordance with Federal regulations and whether the
                          Department has sufficient controls to preserve e-mail and electronic documents, as a result of legal holds;
                          for example, discovery requests, and other litigation considerations, and Freedom of Information Act (FOIA)
                          requests.
      39                  Semiannual Report to Congress, Volume 60
   We found that DOL could not demonstrate that its controls were sufficient to ensure that Federal




                                                                                                                     DEPARTMENTAL MANAGEMENT
records were preserved as required.          While the Department established records management
policies and procedures, it did not follow all its procedures. Specifically, DOL had not performed
comprehensive evaluations of its records management program; it had not provided records
management training to all employees, and DOL agencies had not followed Departmental guidance
for disposing of transitory documents that do not have legal retention requirements. As result, DOL
cannot ensure that employees are entering Federal records into the appropriate record keeping
system and maintaining, using, and disposing of these records in accordance with Federal regulations.
    We also found that DOL did not have an effective record keeping and document management system
to manage e-mail and electronic files in response to FOIA and other requests. As a result, the Department
may not be able to provide such files in a timely and complete manner when these files are required in
conjunction with litigation and FOIA requests.
    We made five recommendations to the Department to implement an effective evaluation process of its
records management program. The Department generally agreed with the recommendations and has either
planned or implemented the necessary corrective actions. The Department also noted that all employees
and managers were required to complete mandatory records management training during the period June
to August 2008. This action was taken in response to a recommendation the OIG made in a previously
issued Management Letter. (Report No. 23-08-002-50-598, issued September 15, 2008)




DOL Faces Challenges in Maintaining Full Compliance
With FISMA

  I  n the Department’s FY 2008 FISMA report to
     OMB, we cited a number of challenges preventing
the Department from fully implementing the minimum
                                                       unauthorized users system access will decrease
                                                       the risk that confidential or sensitive data could be
                                                       inappropriately released or altered.
security controls required by FISMA.          These       We also found weaknesses in configuration
challenges involve access controls, configuration      management controls with system security settings
management, and security controls monitoring and       not being appropriately configured or continuously
testing.                                               monitored.      These configuration management
   For example, our testing found that employees       weaknesses provide avenues for malicious users
who had separated from the agency still had access     to launch attacks on DOL systems. Establishing
to departmental information systems, and we noted      consistent configuration management practices will
multiple cases where individuals accessed systems      help ensure the availability and integrity of sensitive
after their listed separation date.      Preventing    data.

                                                                          Semiannual Report to Congress, Volume 60         40
                             In the area of security controls monitoring and        information.
DEPARTMENTAL MANAGEMENT   testing, we found that although DOL agencies were
                          identifying security weaknesses, they were not
                                                                                       The recurring cycle of many of these weaknesses,
                                                                                    especially access control vulnerabilities identified
                          always documenting those weaknesses. Failure              since FY 2006, demonstrates the need for improved
                          to document identified security weaknesses could          management oversight of information security. Without
                          prevent the mitigation of security risks. Establishing    such oversight, DOL may not be able to protect the
                          strong remediation efforts will protect the integrity     confidentiality, integrity, and availability of its information
                          of data generated and stored by DOL systems,              systems. (23-08-018-07-001, September 16, 2008)
                          including personally identifiable and other sensitive



                          State Workforce Agencies Need Reliable IT Contingency
                          Plans to Ensure That Recipients Receive
                          Unemployment Benefits
                             We conducted a performance audit at State              manner or to perform essential functions during a
                          Workforce Agencies (SWAs) in California, Texas,           situation that may disrupt normal operations. As a
                          New York, and Louisiana to determine whether              result, ETA cannot be certain that these SWAs will be
                          ETA is providing sufficient oversight of information      able to provide UI program benefits to eligible claimants
                          technology (IT) contingency planning to support the       in the event of a disaster or service disruption.
                          Unemployment Insurance program. We selected                  It is critical for all SWAs to have IT contingency
                          these four states because they were high risk             plans for delivery of unemployment benefits to ensure
                          based on the frequency of disasters declared in           individuals who rely on these benefits receive this vital
                          each state, as recorded by FEMA.                          support in a time of need and uncertainty, such as a
                             We found that ETA needs to strengthen its              hurricane or other disaster.
                          oversight of IT contingency planning at the SWAs.            We recommended that ETA implement a monitoring
                          Our audit disclosed that while ETA requires               and review process to verify that SWAs develop and
                          workforce agencies to develop and implement               test IT contingency plans necessary to sustain the UI
                          disaster recovery plans, it does not verify that the      program, and identify and address any weaknesses
                          plans are actually developed and tested. We found         found in SWA IT contingency plans. ETA agreed with
                          that three of the four SWAs may not be able to            our recommendations. (Report No. 23-08-004-03-
                          recover the UI tax and benefit systems necessary          315, September 29, 2008)
                          to maintain operational capability in a timely, orderly


                          Evaluation of DOL’s Privacy Impact Assessment
                             We conducted an evaluation of the Department’s Privacy Impact Assessment (PIA) process. The PIA is an
                          analysis of how information is handled to: (1) ensure handling conforms to applicable privacy requirements
                          (2) determine the risks and effects of collecting, maintaining, and disseminating information in identifiable
                          form in an electronic information system, and (3) evaluate protections and alternative processes for handling
                          information to mitigate potential privacy risks. The requirements for implementing PIA are contained in the
                          OMB Memorandum, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of
                          2002.
                             We found that the overall PIA process within the Department was satisfactory and that the Department has
                          taken positive steps to address OMB requirements. However, we noted that the Department is challenged
                          with timely and complete adherence to the PIA process in implementation of the screening process for
                          personally identifiable information (PII), in execution of the security approval process, and in completion of
                          the PIA questionnaire process.
                             We concluded that the Department needs to continue its efforts to ensure that the component agencies
                          complete their PIAs and post redacted versions of them to the departmental Web site in a timely manner.
                          The Department should also continue to monitor component agencies in their completion of both PII
                          screening forms and PIA questionnaires to ensure each is complete and accurate. We did not make any
                          recommendations to the Department based on our report. (Report No. 23-08-003-07-001, August 4, 2008)
      41                  Semiannual Report to Congress, Volume 60
Internal Controls Over Commission for Labor




                                                                                                                       DEPARTMENTAL MANAGEMENT
Cooperation Secretariat Activities
Should Be Strengthened
   We conducted a performance audit of expenditures incurred by the Commission for Labor Cooperation
(CLC) Secretariat during 2004 through 2006 in response to the findings in an internal CLC review and
Congressional concerns that followed the review. Our objectives were to determine whether CLC’s internal
controls were adequate to ensure that the CLC Secretariat activities and expenditures supported its mission
and to determine what contributed to the decline in the CLC General Fund balance. We found that the
CLC General Fund balance declined primarily as a result of assessment credits granted to the funding
countries.
   The CLC is a tri-national, not-for-profit organization created in 1994 to promote cooperative activities and
research labor standards, labor law, and human resource development. Its leadership, which oversees
activities of the CLC, consists of a Ministerial Council comprising the U.S. and Mexico Secretaries of Labor
and Canada’s Minister of Labor; and an Office of the Secretariat. The CLC Secretariat is an international
organization whose officers and employees enjoy diplomatic immunity from criminal and civil matters under
the International Organizations Immunities Act. In August 2004, the Ministerial Council appointed Mark
Knouse to be executive director of the Secretariat. In October 2006, Mr. Knouse resigned after an internal
review identified issues regarding his leadership, staff practices, and the inappropriate use of funds during
his tenure.
   Our audit found that CLC’s internal controls were not adequate to ensure the CLC Secretariat activities
and expenditures supported the CLC mission. We found the CLC Secretariat:

        • could not demonstrate that contracts and vendor payments totaling about $1 million were used to
        support the CLC mission or that it actually received the goods or services for which it paid; and

        • could not demonstrate that travel expenditures of $9,930, hospitality and representation expenditures
        totaling $18,020, or employee relocation expenditures totaling $12,669, were appropriate uses of
        CLC funds.

   Moreover, we found the CLC Secretariat did not specify minimum qualifications required for staff
positions or provide documentation of specific duties assigned to contract research assistants and interns,
and thereby was unable to show that these individuals were used to support CLC’s mission. Further, the
CLC Secretariat Executive Director did not regularly submit required quarterly financial reports and the
reports that he did submit provided only summary financial data that did not include sufficient details for an
adequate Ministerial Council review of Secretariat activities.
   The OIG did not make any investigative referrals related to the questionable expenditures we found
because Mr. Knouse, as the executive director of the Secretariat, was entitled to diplomatic immunity from
prosecution, and the CLC did not respond to the OIG’s request to waive this immunity.
   We recommended the Secretary of Labor ask the Ministerial Council to take 10 specific corrective actions
to improve internal controls at the CLC in the areas of contracting, allowable expenditures, documentation,
human resources, and financial reporting. We also recommended the Ministerial Council be more proactive
in monitoring CLC Secretariat activities and expenditures. The Deputy Under Secretary for International
Affairs agreed with the recommendations and stated that she will work closely with her counterparts in
Canada and Mexico to undertake our recommended actions. (Report No. 21-08-002-01-070, April 7,
2008)




                                                                            Semiannual Report to Congress, Volume 60         42
                          The Department Should Improve
DEPARTMENTAL MANAGEMENT   Web Application Security

                             The Department operates publicly accessible        established computer incident-response policies and
                          Web applications that provide a wide range of         procedures, but was not adequately enforcing them
                          information about its programs. Ensuring these        to ensure Web application intrusions were promptly
                          Web applications are secure and information is        discovered, reported, and effectively mitigated. We
                          current and readily accessible supports the mission   also found that agencies’ contingency plans were not
                          of the Department. We conducted a performance         adequate to minimize service disruptions and recovery
                          audit of DOL Web application security after the       of some Web applications because the agencies were
                          Department discovered that one of its information     not ensuring compliance with the Department’s related
                          databases had been defaced by external hackers.       policies and procedures.
                          We found that the Department was not effectively         We recommended that the DOL Chief Information
                          managing security over its Web applications and       Officer and the Assistant Secretary for Public Affairs
                          that the agencies we sampled did not ensure           coordinate efforts to secure the Department’s Web
                          compliance with policies and procedures. In           applications.   The Department agreed with our
                          addition, we identified deficiencies at five of the   recommendations and has either planned or initiated
                          six agencies in our sample, indicating a systemic     corrective actions. (Report No. 23-08-002-50-598,
                          control weakness.                                     September 30, 2008)
                             We determined that the Department has




      43                  Semiannual Report to Congress, Volume 60
44
     LEGISLATIVE RECOMMENDATIONS
LEGISLATIVE RECOMMENDATIONS
                                          Legislative Recommendations

                                 The Inspector General Act requires the OIG to review existing or proposed legislation and
                                 regulations and to make recommendations in the semiannual report concerning their impact on
                                 the economy and efficiency of the Department’s programs and on the prevention of fraud and
                                 abuse.



                              Allow DOL Access to Wage Records
                                 To reduce overpayments in employee benefit             NDNH. By cross-matching UI claims against this
                              programs, including UI and FECA, the Department           new-hire data, states can better detect overpayments
                              and the OIG need legislative authority to easily and      to UI claimants who have gone back to work but
                              expeditiously access state UI wage records, SSA           who continue to collect UI benefits. However, this
                              wage records, and employment information from the         law does not provide DOL or the OIG with access
                              National Directory of New Hires (NDNH), which is          to the NDNH. To make the new hire data even more
                              maintained by the Department of Health and Human          useful for this purpose, legislative action is needed
                              Services. The DOL and the SSA currently have a            requiring employers to report a new hire’s first day of
                              memorandum of understanding (MOU) in place that           earnings and provide a clear, consistent, nationwide
                              allows State Workforce Agencies to access Social          definition for this date. Moreover, access to SSA
                              Security data on individuals who apply for UI. The        and UI data would allow the Department to measure
                              MOU is a good first step.                                 the long-term impact of employment and training
                                 In addition, a provision in the State Unemployment     services on job retention and earnings. Outcome
                              Tax Authority (SUTA) Dumping Prevention Act of            information of this type for program participants is
                              2004 (Public Law 108-295) enables state agencies          otherwise difficult to obtain.
                              responsible for the administration of unemployment
                              compensation programs to obtain access to the



                               Amend Pension Protection Laws
                                 Legislative changes to ERISA and criminal penalties for ERISA violations would enhance the protection of
                               assets in pension plans. To this end, the OIG recommends the following:


                                  Expand the authority of EBSA to correct substandard benefit plan audits and ensure that auditors with
                                  poor records do not perform additional plan audits. Changes should include providing EBSA with greater
                                  enforcement authority over registration, suspension, and debarment and the ability to levy civil penalties
                                  against employee benefit plan auditors. The ability to correct substandard audits and take action against
                                  auditors is important because benefit plan audits help protect participants and beneficiaries by ensuring the
                                  proper value of plan assets and computation of benefits.

                                  Repeal ERISA’s limited-scope audit exemption. This provision excludes pension plan assets invested
                                  in banks, savings and loans, insurance companies, and the like from audits of employee benefit plans. The
                                  limited scope prevents independent public accountants who are auditing pension plans from rendering an
                                  opinion on the plans’ financial statements in accordance with professional auditing standards. These “no
                                  opinion” audits provide no substantive assurance of asset integrity to plan participants or to the Department.




         45                   Semiannual Report to Congress, Volume 60
     Require direct reporting of ERISA violations to DOL. Under current law, a pension plan auditor who finds




                                                                                                                            LEGISLATIVE RECOMMENDATIONS
     a potential ERISA violation is responsible for reporting it to the plan administrator, but not directly to DOL.
     To ensure that improprieties are addressed, we recommend that plan administrators or auditors be required
     to report potential ERISA violations directly to DOL. This would ensure the timely reporting of violations and
     would more actively involve accountants in safeguarding pension assets, providing a first line of defense
     against the abuse of workers’ pension plans.

     Strengthen criminal penalties in Title 18 of the United States Code. Three sections of Title 18 serve
     as the primary criminal enforcement tools for protecting pension plans covered by ERISA. Embezzlement
     or theft from employee pension and welfare plans is prohibited by Section 664, making false statements in
     documents required by ERISA is prohibited by Section 1027, and giving or accepting bribes related to the
     operation of ERISA-covered plans is outlawed by Section 1954. Sections 664 and 1027 subject violators to
     5 years’ imprisonment, while Section 1954 calls for up to 3 years’ imprisonment. We believe that raising the
     maximum penalties to 10 years for all three violations would serve as a greater deterrent and would further
     protect employee pension plans.



Provide Authority to Ensure the Integrity of the
Foreign Labor Certification Process
   If DOL is to have a meaningful role in the H-1B        program is susceptible to significant fraud and abuse,
specialty occupations foreign labor certification         particularly by employers and attorneys.
process, it must have the statutory authority to            The OIG also recommends that ETA should
ensure the integrity of that process, including the       seek the authority to bar employers and others who
ability to verify the accuracy of information provided    submit fraudulent applications to the Foreign Labor
on labor condition applications. Currently, DOL           Certification program.
is statutorily required to certify such applications        The OIG recommends that DOL consider, in
unless it determines them to be “incomplete               conjunction with U.S Citizenship and Immigration
or obviously inaccurate.” Our concern with the            Services (USCIS), a legislative proposal that would
Department’s limited ability to ensure the integrity of   require foreign nationals to have their eligibility
the certification process is heightened by the results    determined by USCIS before the employer’s labor
of OIG analysis and investigations that show the          certification application is reviewed by DOL.




                                                                                 Semiannual Report to Congress, Volume 60           46
LEGISLATIVE RECOMMENDATIONS   Enhance the
                              WIA Program
                              Through
                              Reauthorization


                                 The reauthorization of the WIA
                              provides an opportunity to revise
                              WIA programs to better achieve
                              their goals. Based on our audit
                              work, the OIG recommends the
                              following:



                                    Improve state and local reporting of WIA obligations. A disagreement between ETA and the states
                                    about the level of funds available to states drew attention to the way WIA obligations and expenditures
                                    are reported. The OIG’s prior work in nine states and Puerto Rico showed that obligations provide a more
                                    useful measure for assessing states’ WIA funding status if obligations accurately reflect legally committed
                                    funds and are consistently reported.

                                    Modify WIA to encourage the participation of training providers. WIA participants use individual training
                                    accounts to obtain services from approved eligible training providers. However, performance reporting and
                                    eligibility requirements for training providers have made some potential providers unwilling to serve WIA
                                    participants.

                                    Support amendments to resolve uncertainty about the release of WIA participants’ personally
                                    identifying information for WIA reporting purposes. Some training providers are hesitant to disclose
                                    participant data to states for fear of violating the Family Education Rights and Privacy Act.

                                    Strengthen incumbent worker guidance to states. Currently no Federal criteria define how long an
                                    employer must be in business or an employee must be employed to qualify as an incumbent worker, and
                                    no Federal definition of “eligible individual” exists for incumbent worker training. Consequently, a state could
                                    decide that any employer or employee can qualify for a WIA-funded incumbent worker program.



                              Improve the Integrity of the FECA Program
                                  The OIG continues to support reforms to improve the integrity of the FECA program. Implementing the
                              following changes would result in significant savings for the Federal government:

                                    •    Move claimants into a form of retirement after a certain age if they are still injured.

                                    •    Return a 3-day waiting period to the beginning of the 45-day continuation-of-pay
                                         process to require employees to use accrued sick leave or leave without pay before
                                         their benefits begin.

                                    •    Grant authority to DOL to directly and routinely access Social Security wage records
                                         in order to identify claimants defrauding the program.


        47                     Semiannual Report to Congress, Volume 60
INDEX OF REPORTING REQUIREMENTS UNDER THE IG ACT OF 1978




                                                                                                                    APPENDIX
GRG
REPORTING
REP
REPO                  REQUIREMENT                                                                     PAGE


Section 4(a)(2)       Review of Legislation and Regulation                                                45

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                    ALL

Section 5(a)(2)       Recommendations with Respect to Significant
                      Problems, Abuses, and Deficiencies                                               ALL

Section 5(a)(3)       Prior Significant Recommendations on Which
                      Corrective Action Has Not Been Completed                                            65

Section 5(a)(4)       Matters Referred to Prosecutive Authorities                                         66

Section 5(a)(5) and   Summary of Instances Where Information Was Refused                             NONE
Section 6(b)(2)

Section 5(a)(6)       List of Audit Reports                                                               60

Section 5(a)(7)       Summary of Significant Reports                                                    ALL

Section 5(a)(8)       Statistical Tables on Management Decisions on Questioned Costs                      59

Section 5(a)(9)       Statistical Tables on Management Decisions on Recommendations
                      That Funds Be Put to Better Use                                                     59

Section 5(a)(10)      Summary of Each Audit Report over Six Months Old for
                      Which No Management Decision Has Been Made                                          65

Section 5(a)(11)      Description and Explanation for Any Significant
                      Revised Management Decision                                                    NONE

Section 5(a)(12)      Information on Any Significant Management Decisions
                      With Which the Inspector General Disagrees                                     NONE




REQUIREMENTS UNDER THE REPORTS CONSOLIDATION ACT OF 2000


REPORTING             REQUIREMENT                                                                    PAGE

Section 3(d)          Top Management Challenges Facing the U.S. Department of Labor                       50




                                                                         Semiannual Report to Congress, Volume 60     48
APPENDIX




  49       Semiannual Report to Congress, Volume 60
2008 TOP MANAGEMENT CHALLENGES FACING THE DEPARTMENT OF LABOR




                                                                                                                                    APPENDIX
        The Department’s FY 2008 Top Management Challenges identified by the Office of Inspector General (OIG)
  are below. For 2008, the OIG considers workplace protection, accountability, integrity of benefit programs, and
  the delivery of goods and services as the most serious management and performance challenges facing the
  Department. The OIG assessed the Department’s progress in these areas and continues to review and monitor
  how these complex issues are addressed.


For each challenge, the OIG presents an overview of the challenge, a description of the challenge, and the
OIG’s assessment of the Department’s progress in addressing the challenge.
         •   Protecting the Safety and Health of Workers
         •   Improving Performance Accountability of Grants
         •   Ensuring the Effectiveness of the Job Corps Program
         •   Safeguarding Unemployment Insurance
         •   Improving the Federal Employees’ Compensation Act Program
         •   Improving Procurement Integrity
         •   Maintaining the Integrity of Foreign Labor Certification Programs
         •   Securing Information Technology Systems and Protecting Related Information Assets
         •   Ensuring the Security of Employee Benefit Plan Assets
         •   Preserving Departmental Records

 CHALLENGE: Protecting the Safety and Health of Workers

 OVERVIEW: The Department of Labor administers the Federal Mine Safety and Health Act of 1977 (Mine Act) as amended
 by the Mine Improvement Emergency Response Act of 2006 and the Occupational Safety and Health Act of 1970. The
 workplace safety and health of our nation’s workers depends on DOL’s strong enforcement of these laws.

 CHALLENGE FOR THE DEPARTMENT: The OIG has consistently revealed a pattern of weak oversight, inadequate
 policies, and a lack of accountability on the part of MSHA made more of a challenge by years of resource shortages.
 Congress has allocated additional funding. However, it will take several years for the Department to be fully functional
 with these increased resources. Insufficient resources during a period of increasing mining activity made it difficult for the
 Department to ensure that it had enough resources in the right places to ensure the safety of miners. These resource issues
 further reemphasize the need for MSHA to have adequate procedures in place for carrying out its mission. Further, MSHA
 management must monitor performance to ensure that its employees are following those procedures and documenting
 their activities.

 The OIG’s recent audits have documented the need for MSHA to improve its operating procedures and management
 oversight. For example, an OIG report on MSHA inspections found that MSHA did not complete 147 required safety
 inspections at 107 underground coal mines where approximately 7,500 miners worked during FY 2006. In an OIG audit
 of MSHA’s process for approving the roof control plan at Utah’s Crandall Canyon Mine, the OIG found that MSHA was
 negligent in its review, approval, and oversight of the roof control plan.

 Likewise, the Independent Review Team established to evaluate MSHA’s actions prior to the August 2007 accident at the
 Crandall Canyon Mine and during the subsequent rescue activities, identified many serious deficiencies in MSHA’s actions,
 including inadequate evaluation of the engineering data to justify mining in the North and South Barriers and inadequate
 oversight of the plan evaluation and approval process by MSHA management. The review concluded that MSHA’s failure
 to adequately evaluate the roof control plans contributed to the August accident.

 An OIG audit of how MSHA determines whether a fatality is mining-related found that investigators and decision makers
 lacked independence and investigative documentation was not always complete. The OIG also found that decisions about
 the cause of a fatality were sometimes made on a manager’s preliminary assessment and a full investigation was not
 done.

 OSHA’s mission is to prevent work-related injuries, illnesses, and deaths and to ensure that every working man
 and woman in the nation has safe and healthful work conditions; however, work-related fatalities reported in the
 BLS Census of Fatal Occupational Injuries were 5,764 in 2004, 5,734 in 2005, 5,840 in 2006, and 5,488 in 2007.*
 Because it is impossible for OSHA to inspect the more than seven million workplaces in the nation, it is essential that
 OSHA target its limited resources to inspect workplaces with the highest risk of hazardous conditions or which have a
                                                                                         Semiannual Report to Congress, Volume 60     50
           history of causing significant injuries or fatalities. Recent fatal workplace accidents involving cranes, combustible dust,
APPENDIX   and refineries highlight this challenge. In addition, OSHA must ensure that voluntary compliance programs are effective.

           OSHA’s Consultation Program was designed to encourage employers to volunteer for an inspection and then resolve
           work place safety and health issues without the use of enforcement fines and penalties. However, an OIG audit found that
           consultation program officials seldom ensured that interim protection was in place before granting employers’ requests
           for extensions to correct serious hazards, and employers who did not complete corrective actions in a timely fashion
           were seldom referred for enforcement actions. The OIG recommended that OSHA establish a performance measure that
           benchmarks and reports the percentage of serious hazards corrected by the initial correction due date.

           In response to concerns about the effectiveness of OSHA’s enforcement program, the OIG is conducting an audit to
           determine whether OSHA has accurately identified high-risk employers based on OSHA’s definition of these employers
           under its Enhanced Enforcement Program.

           OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: MSHA and OSHA have made progress in addressing this
           challenge. For example, with supplemental funding provided by Congress, MSHA has hired more mine inspectors to
           improve completion of statutorily required inspections. However, MSHA needs to ensure that its recently hired inspectors
           are properly trained. While new inspectors are trained, MSHA has re-allocated current resources by rotating inspectors
           into understaffed districts for two week intervals to assist in completing all mandated inspections. MSHA has also
           increased and clarified the documentation required to support mine inspection activities and defined specific steps for
           reviewing mine plans.

           Further, MSHA has issued guidance to standardize its roof control plan approval process and has developed checklists
           to detail required information and documentation when inspectors review roof control plans. To address concerns about
           independence of decisions about mining fatalities, the Fatality Review Committee now includes a representative outside
           of MSHA. However, this individual is still a DOL employee.

           MSHA also needs to remain vigilant to ensure that approvals of roof control plans are done in accordance with its new
           procedures. The OIG continues to believe that an individual who is not employed by the Department will provide a greater
           degree of independence and integrity to the work of the Fatality Review Committee.

           In response to an OIG report on OSHA’s Consultation Program, OSHA has implemented measures to ensure that
           employers are referred for enforcement action when serious safety hazards are not corrected in a timely manner. OSHA
           has also established a new performance measure tied to the initial hazard correction due date to ensure that serious
           hazards are corrected in a timely manner without the need for granting time extensions to correct the hazard.

           * These numbers include fatalities not under OSHA jurisdiction, such as deaths among miners, transportation workers,
           domestic workers, some public employees, and the self-employed, as well as fatalities that fall outside of OSHA’s definition
           of work-relatedness.


           CHALLENGE: Improving Performance Accountability of Grants

           OVERVIEW: In FY 2007, the Department’s Employment and Training Administration (ETA), issued $5.5 billion in formula
           grants and almost $1 billion in discretionary grants for job training and employment services. Since 2001, ETA has spent
           nearly $900 million in discretionary grant funds on the High Growth Job Training Initiative (High Growth), Community-
           Based Job Training Initiative (Community Based), and the Workforce Innovation in Regional Economic Development
           (WIRED). These initiatives were designed to give greater emphasis to the employment and training needs of high-growth,
           high-demand industries.

           All state and local government and nonprofit recipients that expend $500,000 or more in Federal assistance in one year
           are required by the Single Audit Act to obtain an annual audit by an independent public accountant. The Act mandates
           the examination of a recipient’s financial records, financial statements, federal award transactions and expenditures, the
           general management of its operations, the systems of internal control, and the federal assistance itself received during the
           audit period. ETA grants are awarded to state and local governments and other non-DOL organizations. The Department
           relies on audits conducted under the Single Audit Act to provide oversight of its grants, both formula and discretionary.

           CHALLENGE FOR THE DEPARTMENT:                 DOL continues to face challenges in ensuring that discretionary
           grants are properly awarded and that the Department receives the quality of services that the taxpayers deserve.
           Successfully meeting the employment and training needs of citizens requires selecting the best service providers, making
           expectations clear to grantees, ensuring that success can be measured, providing active oversight, evaluating
           outcomes, and disseminating and replicating proven strategies and programs. Both OIG and GAO have found
           in the past year that ETA continues to have weaknesses in managing its grants to this end. In audits involving the

  51       Semiannual Report to Congress, Volume 60
High Growth, Community Based, and WIRED initiatives, these weaknesses have included the lack of competition in




                                                                                                                                  APPENDIX
awarding grants, grants that failed to achieve major performance goals, grant agreements with goals that were so unclear
it was impossible to determine success or failure, and grants whose required matching funds were not provided. Moreover,
ETA continues to be challenged to provide adequate oversight and monitoring of the grants it awards, as the agency lacks
reliable and timely performance data that would allow identification of problems in time to correct them. Finally, ETA has not
evaluated the usefulness of individual grant products or the overall effectiveness of its discretionary grant initiatives.

Another challenge for the Department related to both formula and discretionary grants is that grantees’ audits
conducted under the Single Audit Act by independent public accountants are not always completed timely and
information from single audits is not always reliable. The OIG has found serious deficiencies in these audits that
demonstrate that the Department is not receiving timely, accurate, reliable information that will assist it making the best
possible program and funding decisions.

OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: As a result of the audits by the OIG and GAO, ETA has
recently increased the emphasis placed on awarding discretionary grants competitively, developed procedures designed
to better document decisions and discussions that lead to grant actions, implemented new procedures to ensure the
proper justification of any future non-competitive awards, and provided training to agency grant officers on these new
procedures. ETA has also stated that future agreements for pilots and demonstration grants will require grantees to obtain
an independent evaluation of grant results. While these actions should help to improve performance accountability, ETA
needs to focus its future efforts on determining how best to prioritize its available resources to adequately monitor grant
performance and how to evaluate grants to ensure desired results are achieved.

The Department has implemented procedures requiring written notifications be sent to grantees when single audit reports
are submitted more than three months past the due date. The notifications serve to remind the grantees of the timeframes
established in OMB Circular A-133, to ensure awareness that the reports were submitted untimely, and to prevent future
untimely submissions.


CHALLENGE: Ensuring the Effectiveness of the Job Corps Program

OVERVIEW: The purpose of the Job Corps program is to assist eligible at-risk youth who need intensive education and
training services in a safe, residential environment. Job Corps has contracts with private companies to operate 98 centers
and interagency agreements with the Departments of Interior and Agriculture to operate 28 centers. The program was
appropriated nearly $1.6 billion in FY 2008.

CHALLENGE FOR THE DEPARTMENT: The OIG’s work has consistently identified challenges to the effectiveness of
the Department’s Job Corps program. These challenges include ensuring the safety and health of students and having
accurate, reliable data about the program’s performance. A cornerstone of the Job Corps program is removing students
from unsafe environments and placing them in a safe residential training program. Ensuring maintenance of its facilities
is a challenge for Job Corps. Unsafe conditions resulting from inadequate maintenance adversely impacts the overall
success of the Job Corps program.

OIG audits have documented numerous health and safety problems at certain centers, such as water-damaged and
collapsing ceiling tiles; mold on student dormitory walls and ceilings; and missing or inoperable emergency exit signs.
Further, Job Corps officials need to do more to address the problems of illegal drugs and violence at its facilities.

OIG audits have also found that contractors have manipulated performance data to inflate their success. The OIG has
repeatedly found problems with the reporting of student outcomes, on-board strength and attendance. This is a
particular challenge for Job Corps when centers are operated by contractors through performance-based contracts which
tie incentive fees and bonuses directly to contractor performance largely measured by on-board strength, attendance, and
outcomes. Under such contracts, there is a risk that contractors will inflate their performance reports so they can continue
to operate centers. It is essential for Job Corps to have reliable, accurate, and timely data, so that the Department can
evaluate how well student needs are being met.

OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: Job Corps has addressed a number of student safety and
health issues and indicated that it will provide more rigorous monitoring of all centers. Also, Job Corps has taken action
to improve financial and performance data reliability at all centers. Although, each center will conduct mandatory audits
of student records concurrent with annual center quality assessments, more needs to be done to resolve problems with
inaccurate performance data.

Although Job Corps is continuing its efforts to maintain a safe and healthy environment for its students, it must be
held accountable to monitor and verify that all centers are being managed and maintained to ensure safe and healthy
environments.

                                                                                       Semiannual Report to Congress, Volume 60     52
           CHALLENGE: Safeguarding Unemployment Insurance
APPENDIX
           OVERVIEW: The Department partners with the states to administer unemployment benefit programs. State Unemployment
           Insurance (UI) provides benefits to workers who are unemployed and meet eligibility requirements established by their
           respective states. UI benefits are financed through employer taxes imposed by the states and collected by the Internal
           Revenue Service, which holds them in the Unemployment Trust Fund (UTF) until needed to pay benefits.

           The Department funds State Workforce Agencies (SWAs) which administer the UI program through grant agreements.
           These grant agreements are intended to ensure that SWAs administer the UI program efficiently and that they comply with
           Federal laws and regulations. In addition, the SWAs are required to have disaster contingency plans in place to enable
           them to administer benefits in the aftermath of a disaster such as a hurricane.

           Disaster Unemployment Assistance (DUA) is a Federally funded program that provides financial assistance to individuals
           who lose their jobs as a direct result of a major disaster and are ineligible for other UI.

           CHALLENGE FOR THE DEPARTMENT: Reducing and preventing UI and DUA overpayments, combating fraud against
           these programs, and timely detecting and recovering overpayments that do occur remains a major challenge for the
           Department and states. In FY 2007, the Department reported more than $3 billion in UI overpayments—a slight drop from
           $3.1 billion in FY 2006. However, the Department did not meet its target goal of identifying and establishing for recovery
           60 percent of UI overpayments in FY 2007.

           OIG work following Hurricanes Katrina and Rita identified potential benefit overpayments as a result of claimants
           concurrently filing under the UI and DUA programs; states not timely verifying eligibility for DUA; and other reasons. For
           example, the OIG found that Louisiana paid unemployment benefits to claimants when the National Directory of New
           Hires (NDNH) database reported those individuals as having obtained jobs. This one example represented potential
           overpayments of $51 million. Following the 2005 hurricanes, the OIG opened over 300 cases of potential UI and DUA
           fraud resulting in 142 indictments and 86 convictions. To date, 240 of these cases have been closed.

           It is a challenge for the Department, other Federal agencies, and the states to have systems and controls in place to
           quickly prevent or respond to improper payments during national emergencies or disasters. The Department needs to
           promote states’ use of the National Directory of New Hires (NDNH) database to prevent and timely detect overpayments.
           The Department also needs to ensure that SWAs have adequate Information Technology (IT) Contingency Plans that will
           enable them to continue to pay UI benefits in the event of a disaster such as a hurricane. It is critical that all SWAs have
           IT contingency plans for UI to ensure individuals who rely on these benefits receive this vital support in a time of need and
           uncertainty.

           Preventing fraud against the UI program is also a challenge. The OIG investigates fraud committed by individuals who
           do not report or underreport outside income while receiving UI benefits. In addition to single claimants and fictitious
           employer-related schemes, OIG investigations have uncovered schemes in which individuals have used identity theft to
           illegally obtain benefits and schemes in which UI benefits have been paid to ineligible claimants.

           OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: The Department has taken some measures to reduce and
           prevent UI and DUA overpayments. The Department stated in its FY 2006 Performance and Accountability Report that it
           has developed a new core performance measure on overpayment detection. Although the Department implemented this
           new performance measure two years ago, there has been only a slight drop in the UI overpayment rate. The Department
           is also working with state agencies to encourage the use of the NDNH database, which will improve the states’ efforts to
           detect overpayments early. The OIG is currently conducting an audit to assess the states’ use of this tool.

           In coordination with other Federal partners and the National Association of State Workforce Agencies, the Department has
           developed action plans using lessons learned from recent disasters. The Department has also brought together Federal
           partners to develop a resource guide to facilitate coordination and streamline the delivery of services in the event of a
           major disaster.

           The OIG is working with UI’s state partners to more effectively provide training to detect and prevent UI fraud.


           CHALLENGE: Improving the Federal Employees’ Compensation Act Program

           OVERVIEW: The Federal Employees’ Compensation Act (FECA) Program provides income and pays medical expenses
           for covered Federal civilian employees injured on the job or who have work-related occupational diseases, and dependents
           of employees whose deaths resulted from job-related injuries or occupational diseases. This program is administered
           by the Department and impacts employees and budgets of all Federal agencies. FECA benefit expenditures totaled
           $2.6 billion in 2007. Most of these costs were charged back to individual agencies for reimbursement to the Department’s
           Office of Workers’ Compensation Programs (OWCP).
  53       Semiannual Report to Congress, Volume 60
CHALLENGE FOR THE DEPARTMENT: The structure and operation of the FECA program is both a Departmental and




                                                                                                                                     APPENDIX
a government-wide challenge. All Federal agencies rely upon OWCP to adjudicate the eligibility of claims, to manage the
medical treatment of those claims, and to make compensation payments and to pay medical expenses. Ensuring proper
payments while being responsive and timely to eligible claimants is a challenge for OWCP. Among these challenges are
moving claimants off the periodic rolls when they can return to work or their eligibility ceases, preventing ineligible recipients
from receiving benefits, and preventing fraud by service providers and by individuals who receive FECA benefits while
working.

The OIG recognizes that it is difficult to identify and address improper payments and/or fraud in the FECA program.
Another difficulty is that OWCP does not have the legal authority to match FECA compensation recipients against social
security wage records. Currently, OWCP must obtain permission from each individual claimant each time in order for it to
check records. Being able to do the match would enable OWCP to identify individuals who are collecting FECA benefits
while working and collecting wages.

OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: The Department has taken several steps to improve the
administration of FECA. The Department completed the roll-out of its new FECA benefit payment system, Integrated
Federal Employee Compensation System, which tracks due dates of medical evaluations; revalidates eligibility for
continued benefits; uses data mining to prevent improper payments; boosts efficiency; and promises improved customer
satisfaction.

The Department needs to continue to seek legislative reforms to the program. The OIG supports the Department’s efforts
to seek legislative reforms to the FECA program which would enhance incentives for employees who have recovered to
return to work, address retirement equity issues, discourage unsubstantiated or otherwise unnecessary claims, and make
other benefit and administrative improvements. Through the enactment of these proposals, the Department estimates
savings to the government over ten years to be $384 million. These legislative reforms would assist the Department to
focus on improving case management and to ensure only eligible individuals receive benefits.

To help ensure proper payments in the FECA program, the Department is seeking legislative authority to easily and
expeditiously access SSA wage records.

The OIG continues to provide training to DOL and to other Federal agencies in the detection and prevention of fraud
against the FECA program. In addition, the OIG has started an audit to determine whether OWCP is complying with
Federal regulations and internal policies and procedures when assessing the wage earning capacity of FECA periodic roll
claimants.



CHALLENGE: Improving Procurement Integrity

OVERVIEW: The Department contracts for many goods and services to assist in carrying out its mission. In FY 2007, the
Department’s acquisition authority exceeded $1.8 billion and included over 10,700 acquisition actions.

CHALLENGE FOR THE DEPARTMENT: Ensuring integrity in procurement activities is a continuing challenge for the
Department. The OIG’s work continues to identify violations of Federal procurement regulations, preferential treatment
in awards, procurement actions that were not in the government’s best interest, and conflicts of interest in awards. For
example, an OIG audit of an employment and training contract raised concerns about preferential treatment in how work
was directed to a specific subcontractor. Another audit found no evidence that DOL Contracting Officers were checking
required sources – existing government inventories of excess personal property or nonprofit agencies affiliated with the
Committee for Purchase from People Who Are Blind or Severely Disabled, before making GSA Schedule procurements.

The Services Acquisition Reform Act (SARA) of 2003 requires that executive agencies appoint a Chief Acquisition
Officer (CAO) whose primary duty is acquisition management. However, the Department’s current organization is not in
compliance with this requirement, as the Assistant Secretary for Administration and Management is serving as the CAO
while retaining other significant non-acquisition responsibilities. Until procurement and programmatic responsibilities
are properly separated and effective controls are put in place, the Department will be at risk for wasteful and abusive
procurement practices.

In addition, a recent OIG audit of procurements for Job Corps found that procurement personnel did not always comply with
the Federal Acquisition Regulation in obtaining adequate justification for sole source contracts. The OIG also determined
that there was a lack of training and inadequate oversight during the contracting process. As a result, contracting integrity,
as well as fair and open competition, could be compromised.

OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: The Department has taken preliminary steps to implement SARA.
In January 2007, the Secretary issued Order 2-2007, which formally established the position of CAO within DOL. This Order

                                                                                         Semiannual Report to Congress, Volume 60      54
APPENDIX    specifically stated that the CAO will have acquisition management as a primary duty. Further, the Order emphasized that
            the CAO will report to the Secretary with day-to-day guidance from the Deputy Secretary and that the CAO will have
            responsibility for overseeing other Department acquisition activities. Unfortunately, the Department still has not satisfied
            the full intent of SARA, as the delegated CAO continues to perform many other duties unrelated to acquisition management,
            such as serving as the Department’s Chief Information Officer and overseeing the Department’s budget operations.


            CHALLENGE: Maintaining the Integrity of Foreign Labor Certification Programs

            OVERVIEW: The Department’s Foreign Labor Certification (FLC) programs provide United States (U.S.) employers
            access to foreign labor to meet worker shortages under terms and conditions that do not adversely affect U.S. workers.
            The Permanent Foreign Labor Certification Program allows an employer to hire a foreign worker to work permanently
            in the U.S., if a qualified U.S. worker is unavailable. The H-1B program allows the Department to certify employers’
            applications to hire temporary foreign workers in specialty occupations such as medicine, biotechnology, and business.
            The H-2B program permits employers to hire foreign workers to come temporarily to the U.S. and perform temporary non-
            agricultural labor on a one-time, seasonal, peak load, or intermittent basis.

            In March 2005, ETA created the PERM (Permanent Electronic Review Management) system which removed the states
            from a direct role in reviewing and auditing applications for foreign labor certification, eliminated the 100 percent review of
            such applications, and established a random sampling and targeted approach to auditing applications to ensure compliance
            with the law and program requirements.

            CHALLENGE FOR THE DEPARTMENT: Maintaining the integrity of its FLC programs, while also ensuring a timely and
            effective review of applications to hire foreign workers, is a continuing challenge for the Department.

            OIG investigations, some of which have been initiated based on referrals from ETA, have identified fraud against these
            programs, and is the fastest growing area of OIG investigations. OIG investigations continue to uncover schemes carried
            out by immigration attorneys, labor brokers, and transnational organized crime groups, some with possible national security
            implications. Further, OIG investigations have revealed schemes involving fraudulent applications that are filed with DOL
            on behalf of fictitious companies—or applications using names of legitimate companies without their knowledge.

            An OIG audit of the PERM system found that ETA had changed its methodology for selecting applications to audit.
            Furthermore, ETA had not conducted audits of all the applications selected for audit. As employers and representatives
            such as labor brokers and others learn what elements in an application are likely to trigger an audit, they may be able to
            structure applications in a way that could lessen the likelihood of applications being audited.

            OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: The Department has instituted measures to reduce fraud
            in its FLC programs. As a result of OIG investigations repeatedly demonstrating the need to eliminate the practice of
            substituting a new foreign worker for the one originally named on a permanent labor certification application, in July 2007
            the Department enacted the Fraud Rule which prohibited the practice of substitution.

            In addition, the OIG and the Department have been working collaboratively to identify and reduce fraud in the FLC process
            by providing training and instruction to ETA personnel on better and more creative ways of identifying and referring to
            the OIG possible labor-related visa fraud. In March 2008, ETA's OFLC launched its Fraud Detection and Protection Unit
            designed to recognize visa fraud and more expeditiously respond to OIG requests for program-related information. The
            OIG continues to work closely with ETA’s fraud unit.


            CHALLENGE: Securing Information Technology Systems and Protecting Related Information Assets

            OVERVIEW: It is essential for the Department to ensure that its information systems are secure. These systems
            contain vital sensitive information that is central to the Department’s mission and to the effective administration of its
            programs—systems and information that provide the nation’s leading economic indicators such as the Consumer Price
            Index, unemployment rate, injury and illness rates, workers’ compensation benefits, participant pension and welfare
            plan information and job and training services. The Congress and the public have voiced concerns over the ability of
            government agencies to provide effective information security and to protect critical data.

            CHALLENGE FOR THE DEPARTMENT: Security of information technology (IT) systems is a government-wide challenge
            and is a continuing challenge for DOL. Keeping up with new threats and IT developments, providing assurances that
            information technology systems will function reliably, and safeguarding information assets will continue to challenge the
            Department today and in the future.

            The OIG’s IT audits have identified access controls, oversight of contractor systems, and the effectiveness of the Chief
            Information Officer’s oversight of the Department’s full implementation of mandatory, minimum information security
  55       Semiannual Report to Congress, Volume 60
controls as DOL’s most significant challenges. The OIG has reported on access control weaknesses over the Department’s




                                                                                                                                    APPENDIX
major information systems since FY 2001. These weaknesses represent a significant deficiency over access to key
systems and may permit unauthorized users to obtain or alter sensitive information, including unauthorized access to
financial records and data.

Another challenge for the Department is ensuring that information systems operated by contractors have the same level
of IT security controls as systems operated by the Department. Our audit work has disclosed security deficiencies in
contractor operated systems.

An OIG FY 2008 Federal Information Security Management Act (FISMA) audit found that the DOL security program did not
fully implement minimum security controls. The OIG identified pervasive and obvious weaknesses across DOL, including
access controls, certification, accreditation and security assessment, configuration management, contingency planning,
and incident response. The OIG has identified these same deficiencies in past years’ FISMA audits. The recurring cycle of
the same weaknesses, especially obvious access control vulnerabilities, identified by the OIG since FY 2006 demonstrates
that DOL’s information security program must improve its current effort to fully implement and monitor information security
controls throughout the Department.

In light of these challenges, the OIG continues to recommend the creation of an independent Chief Information Officer
(CIO) to provide exclusive oversight of IT issues. Accountability can be further enhanced by developing and implementing
new reporting lines of communication for the Chief Information Security Officer (CISO) and the Component Program
Information Security Officers (CPISO). These new communication lines will require the CISO to report directly to both the
CIO and an Executive in the Secretary’s Office dealing with major security matters, including progress on maintaining an
effective Department-wide information security program. The CPISOs would continue to report directly to their respective
component program Assistant Secretary while also reporting to DOL’s CISO. These steps will help to establish a greater
degree of accountability for an overall effective information security program.

OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: In efforts to fully comply with FISMA, the Department is taking
steps to improve the security of its information systems by focusing on access controls, policies and procedures, account
management, and system authorization. The Department’s Chief Information Officer plans to improve upon the testing
and monitoring of system security, focusing on those agencies identified as having greater identified vulnerabilities/risks.
Finally, the Department has required all employees to complete Computer Security Awareness Training annually.


CHALLENGE: Ensuring the Security of Employee Benefit Plan Assets

OVERVIEW: The Department’s mission is to protect the security of retirement, health and other private sector, employer-
provided benefits for America’s workers, retirees and their families. These benefit plans consist of approximately
$5.6 trillion in assets covering more than 150 million workers and retirees. EBSA is charged with overseeing the
administration and enforcement of the fiduciary, reporting, and disclosure provisions of Title I of the Employee Retirement
Income Security Act (ERISA).

CHALLENGE FOR THE DEPARTMENT: Protecting these benefit plan assets against fraud is a challenge for the
Department. OIG labor racketeering investigations demonstrate the continued vulnerability of plan assets to criminal
activity.

Employer benefit plan audits by independent public accountants provide a first-line defense for plan participants against
financial loss. Ensuring that audits by independent public accountants meet quality standards adds to the Department’s
challenge in providing adequate oversight. However, DOL’s authority to require plan audits to meet standards remains
limited because the Department does not have the authority to suspend, debar, or levy civil penalties against employee
benefit plan auditors. The Department must obtain legislative change to correct substandard benefit plan audits and
ensure that auditors with poor records do not perform additional plan audits.

Other legislative changes recommended by OIG include the repeal of ERISA’s limited scope audit exemption that prevents
independent public accountants from rendering an opinion on the plans’ financial statements or assets held in other
regulated entities such as financial institutions, requiring plan administrators or auditors to report potential ERISA violations
directly to DOL, and strengthening criminal penalties in Title 18 of the U.S. Code to provide a stronger fraud deterrent.

Another challenge is the Department’s responsibility for regulatory oversight of ERISA health care provisions. DOL needs
to continue to work closely with State insurance commissioners and the Department of Justice to assist in the identification
and prosecution of fraudulent Multiple Employer Welfare Arrangements.

The OIG is planning an audit to determine how EBSA evaluates the effectiveness of its National enforcement projects
and uses this information to direct future enforcement activities. Further, the OIG is beginning an audit to evaluate whether
EBSA’s Rapid ERISA Action Team project proactively identifies employers facing financial hardships in order to protect

                                                                                        Semiannual Report to Congress, Volume 60      56
APPENDIX   the rights and benefits of pension and health plan participants when the plan sponsor faces severe financial hardship.

           OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: While the Department has sought the recommended legislative
           changes, these changes have not been enacted.

           DOL continues to utilize a multi-pronged strategy to help ensure compliance with ERISA Title I. EBSA has also reached out
           to other Federal enforcement agencies to broaden its enforcement efforts. A Memorandum of Understanding (MOU) was
           signed on July 29, 2008, between EBSA and the Securities and Exchange Commission. The MOU establishes a process
           for both agencies to share information and meet regularly on matters of mutual interest, including findings and trends,
           enforcement cases, and regulatory requirements.


           CHALLENGE: Preserving Departmental Records

           OVERVIEW: The Federal Records Act of 1950 requires that the head of each Federal agency establish and maintain an
           active records management program. The National Archives and Records Administration has oversight responsibilities
           for Federal records management programs. The Department’s Assistant Secretary for Administration and Management is
           responsible for managing the Department’s records and for providing overall policy direction for the Department’s records
           management program. The Department’s records management program consists of records creation, maintenance
           and use, and disposition of records to achieve adequate and proper documentation of the Department’s policies and
           transactions.

           CHALLENGE FOR THE DEPARTMENT: It is a challenge for the Department to ensure that it preserves records in
           accordance with laws and regulations, and properly disposes of those records it is not required to keep. It is also a major
           challenge for the Department to have an effective recordkeeping and document management system to manage e-mails
           and electronic file needs. DOL may be at risk of not being able to address in a timely and complete manner e-mail and
           electronic file needs required as a result of legal hold orders and litigation discovery.

           An additional challenge is the proper handling for both hard copy and electronic records that do not have legal retention
           requirements. Although these documents and files are not considered long-term Federal records, they may be subject to
           legal holds, Congressional requests, and requests under the Freedom of Information Act. It is therefore important that they
           are disposed of in accordance with an appropriate records management program.

           The OIG’s recent audit of the Department’s Records Management Program found that the Department had not conducted
           comprehensive periodic evaluations of its records management program, provided records management training to all
           staff, or effectively managed transitory records or documents that have no legal retention requirements.

           OIG’S ASSESSMENT OF DEPARTMENT’S PROGRESS: Records management is an emerging challenge for the
           Department and agencies government-wide, particularly as reliance on electronic documents continues to increase. In
           FY 2008, the Department implemented mandatory Records Management Training for all its employees. The Department
           will conduct periodic evaluations of agency’s records management programs over a five year cycle beginning in FY 2009.
           The Department has undertaken other efforts to improve its records management program, including issuing guidance
           and specific instructions on how to handle electronic records, issuing an updated Records Management Handbook, and
           updating agency records schedules. The Department has also stated that it will update its cost-benefit analysis regarding
           the establishment of an electronic recordkeeping and document management system. Such a system would provide
           capabilities for storing, indexing, locating and tracking e-mails that are Federal records and addresses the unnecessary
           retention of e-mails that are transitory records or non-records.

           EMERGING CHALLENGE

           Congress enacted the Energy Employees Occupational Illness Compensation Program Act to provide timely, uniform, and
           adequate compensation to civilian men and women suffering from cancer and other illnesses incurred as a result of their
           work in the nuclear weapons production and testing programs of the Department of Energy and its predecessor agencies.
           As of August of this year, the Department had received 167,018 claims, and issued decisions to approve or deny benefits
           on nearly 82 percent of these claims. The Department had approved slightly more than 39 percent of claims and paid
           nearly $3.8 billion in compensation plus more than $200 million in medical reimbursements.

           Recent inquiries by several members of Congress and the public have raised concerns as to whether the Department
           unfairly denies too many claims and whether claims decisions are timely.

           In response to concerns about the Energy workers’ program, the OIG is conducting an audit to determine whether claim
           decisions issued by the Department complied with applicable law and regulations, and whether the Department has a
           system in place to ensure that claims are adjudicated as promptly as possible and claimants are kept informed.


  57       Semiannual Report to Congress, Volume 60
                                                            APPENDIX
AUDIT AND INVESTIGATIVE
       SCHEDULES




                 Semiannual Report to Congress, Volume 60     58
APPENDIX
                                                          Funds Put to Better Use Agreed to by DOL
                                                                                                                            Number of       Dollar Value
                                                                                                                             Reports        ($ millions)
             For which no management decision had been made as of the commencement of the reporting                            2                 1.2
             period
             Issued during the reporting period                                                                                  0               0.0
                     Subtotal                                                                                                    2               1.2

             For which management decision was made during the reporting period:
               x Dollar value of recommendations that were agreed to by management                                                               0.4
               x Dollar value of recommendations that were not agreed to by management                                                           0.8
             For which no management decision had been made as of the end of the reporting period                                                0.0


                                                        Funds Put to Better Use Implemented by DOL
                                                                                                                           Number of       Dollar Value
                                                                                                                            Reports        ($ millions)
             For which final action had not been taken as of the commencement of the reporting period                         5               438.5
             For which management or appeal decisions were made during the Reporting period                                   2                 0.3
                     Subtotal                                                                                                 7               438.8

             For which final action was taken during the reporting period:
               x Dollar value of recommendations that were actually completed                                                                   0.0
               x Dollar value of recommendations that management has subsequently concluded should                                             428.2
                   not or could not be implemented or completed
             For which no final action had been taken by the end of the period                                                  5               10.6


                                                               Resolution Activity: Questioned Costs
                                                                                                                           Number of       Questioned
                                                                                                                            Reports           Costs
                                                                                                                                           ($ millions)
              For which no management decision had been made as of the commencement of the reporting                            24            160.5
              period (as adjusted)
              Issued during the reporting period                                                                                16              4.3
                       Subtotal                                                                                                 40             164.8

              For which a management decision was made during the reporting period:
                x Dollar value of disallowed costs                                                                                             66.5
                x Dollar value of costs not disallowed                                                                                         79.8
              For which no management decision had been made as of the end of the reporting period                              17             18.5
              For which no management decision had been made within six months of issuance                                       2             14.2


                                                               Resolution Activity: Disallowed Costs
                                                                                                                           Number of        Disallowed
                                                                                                                            Reports            Costs
                                                                                                                                            ($ millions)
              For which final action had not been taken as of the commencement of the reporting period (as                      70             23.0
              adjusted)*
              For which management or appeal decisions were made during the reporting period                                    22             67.2
                    Subtotal                                                                                                    92             90.2

              For which final action was taken during the reporting period:
                x Dollar value of disallowed costs that were recovered                                                                         50.0
                x Dollar value of disallowed costs that were written off by management                                                          1.0
                x Dollar value of disallowed costs that entered appeal status                                                                   0.0
              For which no final action had been taken by the end of the reporting period                                       84             39.2

            * These figures are provided by DOL agencies and are unaudited. Does not include $2.1 million of disallowed costs that are under appeal.
              Partial recovery/write-offs are reported in the period in which they occur. Therefore, many audit reports will remain open awaiting final
              recoveries/write-offs to be recorded.



  59       Semiannual Report to Congress, Volume 60
                                                                                                                                         APPENDIX
                        FINAL AUDIT AND ATTESTATION REPORTS ISSUED
                                                                                                                           Other
                                  Program Name                                           # of Nonmonetary   Questioned
                                                                                                                          Monetary
                                  Name of Report                                         Recommendations     Costs ($)
                                                                                                                         Impact ($)
                                                 Employment and Training Programs
Disability Employment Program
  Single Audit: Private Industry Council of San Francisco, Inc.; Report No. 24-08-512-
                                                                                                5                0            0
    01-080; 04/15/08

United States Employment Service
 Single Audit: State of Georgia; Report No. 24-08-516-03-320; 05/05/08                          2                0            0

Job Corps Program
  Transfer of Job Corps Program Strengthened; Report No. 04-08-003-01-370;
                                                                                                2                0            0
    09/30/08
  Procurement Processing But Improvements Are Needed to Ensure Fair and Open
    Competition Career Systems Development Corporation: Controls Over Center                    7             21,750          0
    Operations Were Not Effective; Report No. 26-08-001-01-370; 09/30/08
  Performance Audit of USDA Forest Service Job Corps Centers; Report No. 26-08-
                                                                                               10                0            0
    004-01-370; 09/30/08
  Performance Audit of Applied Technology System, Inc., Job Corps Centers;
                                                                                                4             680,098         0
  Report No. 26-08-005-01-370; 09/30/08

Older Workers Program
  NAPCA Needs to Improve Oversight of Senior; Report No. 09-08-001-03-360;
                                                                                                2             182,178         0
    09/30/08
  Single Audit: The Workplace, Inc.; Report No. 24-08-509-03-360; 04/11/08                      3                0            0
  Single Audit: Quality Career Services; Report No. 24-08-550-03-360; 09/18/08                  1                0            0
  Single Audit: Senior Service America, Inc. ; Report No. 24-08-556-03-360; 09/30/08            1                0            0

Seasonal Famworkers Program
 Single Audit: Black Hills Special Services Cooperative; Report No. 24-08-520-03-
                                                                                                5                0            0
   365; 07/07/08
 Single Audit: Illinois Migrant Council; Report No. 24-08-540-03-365; 09/03/08                  4                0            0

Workforce Investment Act
 Selected High Growth Job Training Initiative Grants: Value Not Demonstrated;
                                                                                               12            2,557,887        0
   Report No. 02-08-204-03-390; 04/29/08
 ETA Needs to Ensure Grantees are Aware of Their Responsibilities for Reporting
   the Loss of Personally Identifiable Information; Report No. 02-08-205-03-390;                1                0            0
   09/30/08
 Single Audit: Goodwill Industries of Central Arizona, Inc. ; Report No. 24-08-507-03-
                                                                                                5                0            0
   390; 04/11/08
 Single Audit: Seminole Nation of Oklahoma; Report No. 24-08-510-03-390; 04/11/08               0             123,392         0
 Single Audit: Alamo Community College District; Report No. 24-08-511-03-390;
                                                                                                1             20,200          0
   04/11/08
 Single Audit: State of Utah; Report No. 24-08-515-03-390; 04/30/08                            10              4,215          0
 Single Audit: Span, Inc.; Report No. 24-08-517-03-390; 06/16/08                                4                0            0
 Single Audit: SER-Jobs for Progress National, Inc. ; Report No. 24-08-518-03-390;
                                                                                               10                0            0
   06/18/08
 Single Audit: Central Texas Workforce Development Board, Inc. ; Report No. 24-08-
                                                                                                2                0            0
   523-03-390; 07/21/08
 Single Audit: Sisseton-Wahpeton Oyate; Report No. 24-08-524-03-390; 07/22/08                   0             29,612          0
 Single Audit: State of Alabama; Report No. 24-08-530-03-390; 08/27/08                          3                0            0
 Single Audit: The Latino Coalition for Faith and
                                                                                                5                0            0
 Community Initiatives; Report No. 24-08-534-03-390; 08/27/08
 Single Audit: State of Maine (Fiscal Year 2006) ; Report No. 24-08-537-03-390;
                                                                                                1                0            0
   09/03/08
 Single Audit: The Chicago Technology Park Corporation; Report No. 24-08-538-03-
                                                                                                3                0            0
   390; 09/03/08
 Single Audit: The Navajo Nation; Report No. 24-08-539-03-390; 09/03/08                        10             159,989         0




                                                                                              Semiannual Report to Congress, Volume 60     60
APPENDIX
                                                                                                                                      Other
                                              Program Name                                          # of Nonmonetary   Questioned
                                                                                                                                     Monetary
                                              Name of Report                                        Recommendations     Costs ($)
                                                                                                                                    Impact ($)
              Single Audit: State of Michigan Department of Labor And Economic Growth
                Unemployment Insurance Agency Administration Fund (Fiscal Year 2006) ; Report              1               0            0
                No. 24-08-541-03-390; 09/18/08
              Single Audit: The Community Transportation Development Center; Report No. 24-
                                                                                                           1             59,645         0
                08-544-03-390; 09/10/08
              Single Audit: State of Hawaii Department of Labor And Industrial Relations; Report
                                                                                                           2               0            0
                No. 24-08-545-03-390; 09/10/08
              Single Audit: State of Maine (Fiscal Year 2007); Report No. 24-08-548-03-390;
                                                                                                           6               0            0
                09/18/08
              Single Audit: Metro United Methodist Urban Ministry; Report No. 24-08-549-03-390;
                                                                                                           2               0            0
                09/18/08
              Single Audit: Saint Regis Mohawk Tribe; Report No. 24-08-552-03-390; 09/26/08                1               0            0
              Single Audit: The Metropolitan Community College; Report No. 24-08-553-03-390;
                                                                                                           1               0            0
                09/26/08
              Single Audit: State of West Virginia; Report No. 24-08-554-03-390; 09/26/08                 10               0            0
              Single Audit: Worksystems, Inc. ; Report No. 24-08-555-03-390; 09/30/08                     1                0            0
              Single Audit: Chicago Women In Trades; Report No. 24-08-557-03-390; 09/26/08                 1               0            0
              Single Audit: The Computing Technology Industry Association Educational
                                                                                                           1               0            0
                Foundation, Inc. ; Report No. 24-08-558-03-390; 09/26/08
              Single Audit: Wildcat Service Corporation; Report No. 24-08-559-03-390; 09/30/08             1               0            0
              Single Audit: San Carlos Apache Tribe Workforce Investment Act Program; Report
                                                                                                           6               0            0
                No. 24-08-560-03-390; 09/30/08
              Single Audit: State of New Mexico Office of Workforce Training and Development;
                                                                                                           4               0            0
                Report No. 24-08-561-03-390; 09/30/08

            Veterans Employment and Training Services
              Single Audit: Minnesota Assistance Council for Veterans; Report No. 24-08-531-02-
                                                                                                           3               0            0
                001; 08/27/08
              Single Audit: Crisis Ministries; Report No. 24-08-508-02-001; 04/11/08                       2               0            0
              Single Audit: Way Station, Inc.; Report No. 24-08-521-02-001; 07/10/08                       5               0            0
              Single Audit: State of California (Fiscal Year 2007) ; Report No. 24-08-528-02-001;
                                                                                                           1               0            0
                08/27/08

            Goal Totals (45 Reports)                                                                      162          3,838,966        0

                                                                 Worker Benefit Programs
            Unemployment Insurance Service
             Lack of Contingency Plan Contributed to More Than $100 Million in Potential
                Overpayments of Hurricane-Related Unemployment Benefits; Report No. 06-08-                 3               0            0
                001-03-315; 05/30/08
             The Federal/State Unemployment Insurance Partnership Needs Enhanced Federal
                Oversight To Establish Reliable IT Contingency Plans; Report No. 23-08-004-03-             4               0            0
                315; 09/29/08
             Single Audit: Government of the United States Virgin Islands; Report No. 24-08-506-
                                                                                                           7               0            0
                03-315; 04/15/08
             Single Audit: State of Michigan Department of Labor and Economic Growth
                Unemployment Insurance Agency Unemployment Compensation Fund (Fiscal                       4               0            0
                Year 2007) ; Report No. 24-08-533-03-315; 09/02/08
             Single Audit: State of Connecticut; Report No. 24-08-551-03-315; 09/24/08                     2               0            0

            Goal Totals (5 Reports)                                                                       20               0            0

                                                       Worker Safety, Health, and Workplace Rights
            International Labor Affairs
               Internal Controls Over Commission of Labor Cooperation Secretariat Activities Need
                                                                                                           1               0            0
                  Strengthening; Report No. 21-08-002-01-070; 04/07/08

            Foreign Labor Certification
              Internal Controls in the Program Electronic Review Management Audit Process Need
                 Improvement To Ensure Integrity of the Permanent Labor Certification Program;             3               0            0
                 Report No. 06-08-003-03-321; 09/30/08




  61       Semiannual Report to Congress, Volume 60
                                                                                                                                        APPENDIX
                                                                                                                            Other
                                   Program Name                                         # of Nonmonetary    Questioned
                                                                                                                           Monetary
                                   Name of Report                                       Recommendations      Costs ($)
                                                                                                                          Impact ($)
Occupational Safety and Health
  Single Audit: State of California (Fiscal Year 2007) ; Report No. 24-08-527-10-001;
                                                                                               10             174,196          0
    09/02/08

Goal Totals (3 Reports)                                                                        14             174,196          0
                                                     Departmental Management
ETA Management
  Single Audit: State of Montana; Report No. 24-08-513-03-001; 05/02/08                         5                0            0
  Single Audit: State of Florida; Report No. 24-08-514-03-00104/30/08;                         14             230,899         0
  Single Audit: South Carolina Employment Security Commission; Report No. 24-08-
                                                                                                5                0             0
    519-03-001; 06/26/08
  Single Audit: State of Michigan Department of Labor and Economic Growth
    Unemployment Insurance Agency Unemployment Compensation Fund (Fiscal Year                  11              4,607          0
    2006) ; Report No. 24-08-525-03-001; 09/03/08
  Single Audit: State of California (Fiscal Year 2007) ; Report No. 24-08-526-03-001;
                                                                                                6              15,339          0
    08/27/08
  Single Audit: State of Louisiana; Report No. 24-08-529-03-001; 08/27/08                       4              30,029         0
  Single Audit: State of Arizona; Report No. 24-08-535-03-001; 09/18/08                         4                 0           0
  Single Audit: State of Illinois; Report No. 24-08-536-03-001; 09/10/08                       10               5,475         0
  Single Audit: NAF Multicultural Human Development Corporation; Report No. 24-08-
                                                                                                2                0             0
    542-03-001; 09/24/08
  Single Audit: Commonwealth of Puerto Rico Department of Labor and Human
                                                                                               47                0             0
    Resources; Report No. 24-08-543-03-001; 09/18/08
  Single Audit: State of Alaska; Report No. 24-08-546-03-001; 09/24/08                          2                0             0
  Single Audit: New Mexico Department of Labor; Report No. 24-08-547-03-001;
                                                                                                1                0             0
    09/18/08

Office of the Assistant Secretary for Administration and Management
  The Department of Labor’s Records Management Program Controls Need
                                                                                                5                0             0
     Strengthening; Report No. 03-08-001-07-001; 09/15/08
  The Department of Labor’s Control Over Sole Source Procurements Need
                                                                                                5                0            0
     Strengthening; Report No. 03-08-002-07-711; 09/30/08

Multi-Agency Programs
 The Department ‘s Web Application Security and Related Controls Can Be Improved;
                                                                                                2                0             0
    Report No. 23-08-002-50-598; 09/30/08

Goal Totals (15 Reports)                                                                      123             286,349          0

Final Audit and Attestation Report Totals (68 Reports)                                        319            4,299,511         0

NOTE: All single audit reports shown in the above schedule represent audits of States, local governments and nonprofit organizations
      conducted, in accordance with generally accepted government auditing standards, by independent public accounting firms
      and/or state and local government auditors under the Single Audit Act of 1984 and the Single Audit Act Amendments of 1996.
      Upon receipt of the Single Audit report, OIG reviews the report to identify findings and recommendations directed at DOL
      programs. OIG then issues a report to the funding agency that summarizes the DOL findings and recommendations, and
      requests that the funding agency take resolution action on the recommendations within 6 months of the date of the OIG report.




                                                                                             Semiannual Report to Congress, Volume 60     62
APPENDIX

                                                          OTHER REPORTS ISSUED
                                                                                                                                      Other
                                              Program Name                                            # of Nonmonetary Questioned
                                                                                                                                     Monetary
                                              Name of Report                                          Recommendations Costs ($)
                                                                                                                                    Impact ($)
                                                            Employment and Training Programs
           Trade Adjustment
             Quality Control Review: Single Audit of the Alamo Workforce Development, Inc., for the
                                                                                                             0             0            0
               Fiscal Year Ended June 30, 2004 and 2005; Report No. 24-08-004-03-330; 04/11/08

           Workforce Investment Act
            Quality Control Review: Single Audit of the Private Industry Council of San Francisco,
              Inc., Financial Statements and OMB Circular A-133 Reports for the Two Year Period              6             0            0
              Ended June 30, 2005; Report No. 24-08-006-03-390; 08/06/08
            Quality Control Review: Single Audit of the Seattle-King County Workforce
              Development Council Auditor’s Reports and Financial Statements for the Year Ended              2             0            0
              June 30, 2005; Report No. 24-08-007-03-390; 08/08/08

           Veterans Employment and Training Services
            Status of Recommendations Provided to VETS In Notifications of Findings and
               Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                                            65             0            0
               Significant Security Control Deficiencies in Access Controls and in the VETS,
               USERRA Information Management System; Report No. 23-08-016-02-001; 09/30/08

           Bureau of Labor Statistics
            Notifications of Findings and Recommendations Related To the Federal Information
              Security Management Act Audit of: Current Employment Statistics System; Report                 6             0            0
              No. 23-08-005-11-001; 08/26/08
            Status of Recommendations Provided to ETA In Notifications of Findings and
              Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                                             0             0            0
              Significant Security Control Deficiencies in Access Controls and in the VETS,
              USERRA Information Management System; Report No. 23-08-013-11-001; 08/25/08

           Goal Totals (6 Reports)                                                                          79             0            0

                                                                  Worker Benefit Programs
           Federal Employees Compensation Act
             Service Auditors’ Report on Integrated Federal Employees’ Compensation System and
               Service Auditors’ Report on the Medical Bill Processing System for the Period                 0             0            0
               10/1/07-3/31/08; Report No. 22-08-008-04-431; 08/18/08

           Employee Benefit Security Program
            Notifications of Findings and Recommendations Related To the Federal Information
              Security Management Act Audit of: Employee Retirement Income Security Act Filing              19             0            0
              Acceptance System; Report No. 23-08-006-12-001; 08/29/08
            Status of Recommendations Provided to EBSA In Notifications of Findings and
              Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                                             5             0            0
              Significant Security Control Deficiencies in Access Controls and in the VETS,
              USERRA Information Management System; Report No. 23-08-015-12-001; 09/25/08

           Goal Totals (3 Reports)                                                                          24             0            0

                                                       Worker Safety, Health, and Workplace Rights
           Mine Safety and Health
            Notifications of Findings and Recommendations Related To the Federal Information
              Security Management Act Audit of: MSHA General Support System; Report No. 23-                 16             0            0
              08-009-06-001; 08/26/08
            Status of Recommendations Provided to MSHA In Notifications of Findings and
              Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                                             0             0            0
              Significant Security Control Deficiencies in Access Controls and in the VETS,
              USERRA Information Management System; Report No. 23-08-014-06-001; 09/25/08




  63       Semiannual Report to Congress, Volume 60
                                                                                                                                    APPENDIX
                                                                                                                         Other
                                   Program Name                                       # of Nonmonetary Questioned
                                                                                                                        Monetary
                                   Name of Report                                     Recommendations Costs ($)
                                                                                                                       Impact ($)
Occupational Safety and Health
 Notifications of Findings and Recommendations Related To the Federal Information
   Security Management Act Audit of: OSHA General Support System; Report No. 23-             16               0            0
   08-011-10-001; 08/28/08

Goal Totals (3 Reports)                                                                      32               0            0

                                                  Departmental Management
Administrative Law Judges
 Notifications of Findings and Recommendations Related To the Federal Information
   Security Management Act Audit of: OALJ’s Case Tracking System; Report No. 23-             18               0            0
   08-010-01-001; 08/29/08

ETA Management
 Status of Recommendations Provided to ETA In Notifications of Findings and
   Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                              3               0            0
   Significant Security Control Deficiencies in Access Controls and in the VETS,
   USERRA Information Management System; Report No. 22-08-012-03-001; 09/12/08
 Notifications of Findings and Recommendations Related To the Federal Information
   Security Management Act Audit of: Foreign Labor Certification System; Report No.          15               0            0
   23-08-008-03-001; 08/29/08

ESA Management
 Status of Recommendations Provided to ESA In Notifications of Findings and
   Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                              3               0            0
   Significant Security Control Deficiencies in Access Controls and in the VETS,
   USERRA Information Management System; Report No. 22-08-011-04-001; 09/12/08
 Notifications of Findings and Recommendations Related To the Federal Information
   Security Management Act Audit of: Central Bill Processing System; Report No. 23-           9               0            0
   08-007-04-001; 08/27/08

OASAM Management
 Status of Recommendations Provided to OASAM In Notifications of Findings and
   Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                              2               0            0
   Significant Security Control Deficiencies in Access Controls and in the VETS,
   USERRA Information Management System; Report No. 22-08-013-07-001; 09/30/08
 Evaluation of the Department of Labor’s Privacy Impact Assessment Process; Report
                                                                                              0               0            0
   No. 23-08-003-07-001; 08/04/08
 Notifications of Findings and Recommendations Related to the Federal Information
                                                                                              2               0            0
   Security Management Act; Report No. 23-08-017-07-001; 09/17/08
 Inspector General’s Fiscal Year 2008 Federal Information Security Management Act
                                                                                              0               0            0
   OMB Template and Appendix; Report No. 23-08-018-07-001; 09/16/08

  Office of the Chief Financial Officer
  Status of Recommendations Provided to ESA In Notifications of Findings and
    Recommendations Cited in the Audit Report: Department of Labor Needs to Remedy
                                                                                              1               0            0
    Significant Security Control Deficiencies in Access Controls and in the VETS,
    USERRA Information Management System; Report No. 22-08-010-13-001; 09/08/08

Goal Totals (10 Reports)                                                                     53               0            0


Other Report Totals (22 Reports)                                                            188               0            0




                                                                                         Semiannual Report to Congress, Volume 60     64
APPENDIX                        UNRESOLVED AUDIT REPORTS OVER SIX MONTHS OLD
               Agency/                                                                                     # of         Questioned
                                                           Name of Audit
               Program                                                                                Recommendations    Costs ($)
                                               Nonmonetary Recommendations and Questioned Costs
                                       OIG Conducting Followup Work During FY 2008 Financial Statement Audits
            CFO/Admin     FY 2007 Consolidated Financial Statements Management Advisory Comments;            2                 0
                          Report No. 22-08-006-13-001; 03/20/08
                         Final Management Decision Issued by Agency Did Not Resolve; OIG Negotiating with Program Agency

            OASAM/DIRM Award and Management of Contracts for Encryption Software Were Significantly             1              0
                       Flawed; Report No.05-05-005-07-720; 03/31/05
                       MSHA Procurements Showed a Pattern of Disregard for Federal and Department               1              0
            MSHA/Admin of Labor Acquisition Rules and Requirements ; Report No.25-05-001-06-001;
                       10/29/04
                           Coal Mine Hazardous Condition Complaint Process Should Be Strengthened;              1              0
            MSHA/Admin
                           Report No.05-06-006-06-001; 09/29/06

            MSHA/Admin MSHA Roof Control Plan at Crandall Canyon Mine; Report No.05-08-003-06-001;              2              0
                       03/31/08
                                       Issues Being Elevated to Department’s Audit Resolution Official
            MSHA/Admin MSHA Chargeable Fatalities; Report No.05-08-002-06-001; 01/11/08                  1                     0
                      Final Management Decision Not Yet Issued–Agency Awaiting Response from Internal Revenue Service

            EBSA           Improved Oversight of Cash Balance Plan Lump Sum Distributions Is Needed;            2              0
                           Report No.09-02-001-12-121; 03/29/02
                                          Final Management Decision Not Issued by Agency by Close of Period
                           Single Audit: YWCA of Greater Los Angeles; Report No. 21-06-543-01-370;            12               0
            OSEC/JCC
                           08/06/06
                                                   Agency Has Requested Additional Time to Resolve
                        Consortium for Workers Education Earmark Grant; Report No.02-08-203-03-390;             5          11,264,554
            ETA/WIA
                        02/29/08
            ETA/WIA     Single Audit: State of New York; Report No.24-08-504-03-390; 03/25/08                 2             2,945,825
            Total Nonmonetary Recommendations, Questioned Costs                                               29           14,210,379

                                                                   Cost Efficiencies
            Total Cost Efficiencies                                                                            0               0
            Total Audit Exceptions and Cost Efficiencies                                                      29           14,210,379




  65       Semiannual Report to Congress, Volume 60
                             INVESTIGATIVE STATISTICS




                                                                                                                     APPENDIX
                                                                       Division              Total
                                                                        Totals
Cases Opened:                                                                                 166
   Program Fraud                                                         114
   Labor Racketeering                                                    52

Cases Closed:                                                                                 257
   Program Fraud                                                         200
   Labor Racketeering                                                    57

Cases Referred for Prosecution:                                                               143
   Program Fraud                                                         104
   Labor Racketeering                                                    39

Cases Referred for Administrative/Civil Action:                                               106
   Program Fraud                                                          98
   Labor Racketeering                                                      8

Indictments:                                                                                  292
   Program Fraud                                                         224
   Labor Racketeering                                                    68

Convictions:                                                                                  348
   Program Fraud                                                         205
   Labor Racketeering                                                    143

Debarments:                                                                                    20
   Program Fraud                                                          4
   Labor Racketeering                                                     16

Recoveries, Cost Efficiencies, Restitutions, Fines/Penalties,                            $36,593,344
Forfeitures, and Civil Monetary Actions:
   Program Fraud                                                      $25,585,706
   Labor Racketeering                                                 $11,007,638

Recoveries: The dollar amount/value of an agency’s action to recover or to                $1,935,704
reprogram funds or to make other adjustments in response to OIG investigations
Cost-Efficiencies: The one-time or per annum dollar amount/value of                       $5,170,187
management’s commitment, in response to OIG investigations, to utilize the
government’s resources more efficiently
Restitutions/Forfeitures: The dollar amount/value of restitutions and forfeitures        $25,404,706
resulting from OIG criminal investigations
Fines/Penalties: The dollar amount/value of fines, assessments, seizures,                 $3,621,256
investigative/court costs, and other penalties resulting from OIG criminal
investigations
Civil Monetary Actions: The dollar amount/value of forfeitures, settlements,               $461,491
damages, judgments, court costs, or other penalties resulting from OIG civil
investigations
Total                                                                                    $36,593,344


                                                                          Semiannual Report to Congress, Volume 60     66
APPENDIX
                                                             OIG HOTLINE


                      The OIG Hotline provides a communication link between the OIG and persons who want to report
                alleged violations of laws, rules, and regulations; mismanagement; waste of funds; abuse of authority; or
                danger to public health and safety. During the reporting period April 1, 2008, through September 30, 2008,
                the OIG Hotline received a total of 2,096 contacts. Of these, 1,527 were referred for further review and/or
                action.




              Complaints Received (by method reported):                                                                        Totals
              Telephone                                                                                                         1,703
              E-mail/Internet                                                                                                     184
              Mail                                                                                                                162
              Fax                                                                                                                  44
              Walk-In                                                                                                               3
              Total                                                                                                             2,096

              Contacts Received (by source):                                                                                   Totals
              Complaints from Individuals or Nongovernmental Organizations                                                      2,004
              Complaints/Inquiries from Congress                                                                                   31
              Referrals from GAO                                                                                                    6
              Complaints from Other DOL Agencies                                                                                   27
              Incident Reports from DOL Agencies and Grantees                                                                       5
              Referrals from OIG Components                                                                                         7
              Complaints from Other (non-DOL) Government Agencies                                                                  16
              Total                                                                                                             2,096

              Disposition of Complaints:                                                                                       Totals
              Referred to OIG Components for Further Review and/or Action                                                         117
              Referred to DOL Program Management for Further Review and/or Action                                                 692
              Referred to Non-DOL Agencies/Organizations                                                                          741
              No Referral Required/Informational Contact                                                                          569
              Total                                                                                                            2,119*



               * During this reporting period, the OIG Hotline office referred several individual complaints simultaneously to multiple
                 offices or entities for review. (i.e. two OIG components, or to an OIG component and DOL program management
                 and/or non-DOL agency)




  67       Semiannual Report to Congress, Volume 60
                   Office of Inspector General
               United States Department of Labor


   Report Fraud, Waste and Abuse




                Call the Hotline
         202.693.6999     800.347.3756
             Email: hotline@oig.dol.gov
                Fax: 202.693.7020

   The OIG Hotline is open to the public and to Federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste
and abuse concerning Department of Labor programs and operations.

                              OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
 Office of Inspector General, U.S. Department of Labor
              200 Constitution Avenue, NW
                      Room S-5506
                 Washington, DC 20210

Report Fraud, Waste and Abuse by calling or emailing the
                     OIG Hotline
         (800) 347-3756 or hotline@oig.dol.gov
